<html>
<title> - THE POISONING OF PARADISE: CRYSTAL METHAMPHETAMINE IN HAWAII</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





      THE POISONING OF PARADISE: CRYSTAL METHAMPHETAMINE IN HAWAII

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 2, 2004

                               __________

                           Serial No. 108-276

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform



      THE POISONING OF PARADISE: CRYSTAL METHAMPHETAMINE IN HAWAII

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 2, 2004

                               __________

                           Serial No. 108-276

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform



                    U.S. GOVERNMENT PRINTING OFFICE
98-604                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          BETTY McCOLLUM, Minnesota
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
JOHN R. CARTER, Texas                    Maryland
MARSHA BLACKBURN, Tennessee          ELEANOR HOLMES NORTON, District of 
PATRICK J. TIBERI, Ohio                  Columbia
                                     BETTY McCOLLUM, Minnesota

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
        Nicholas Coleman, Professional Staff Member and Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 2, 2004...................................     1
Statement of:
    Aiona, James R. ``Duke'', Lieutenant Governor, State of 
      Hawaii.....................................................    15
    Botti, Richard, executive director, Hawaii Food Industry 
      Association................................................    71
    Burnett, Larry D., Director, Hawaii High Intensity Drug 
      Trafficking Area...........................................    20
    Goodwin, Charles, Special Agent-in-Charge, Honolulu Division, 
      Federal Bureau of Investigation............................    29
    Grey, Briane, Assistant Special Agent in Charge, Honolulu 
      Office, Drug Enforcement Administration....................    39
    Hashida, Grayson, Big Island Substance Abuse Council.........    89
    Kamita, Keith, administrator, narcotics enforcement division, 
      Hawaii State Department of Public Safety...................    56
    Kenoi, William P., executive assistant to mayor Harry Kim, 
      county of Hawaii...........................................    55
    Mahuna, Lawrence K., police chief, Hawaii County Police 
      Department.................................................    65
    Salavea, Allen, Office of the Prosecuting Attorney with the 
      Youth Builders.............................................    91
    Wasan, Jamal, Lokahi Treatment Program.......................    97
Letters, statements, etc., submitted for the record by:
    Aiona, James R. ``Duke'', Lieutenant Governor, State of 
      Hawaii, prepared statement of..............................    18
    Botti, Richard, executive director, Hawaii Food Industry 
      Association, prepared statement of.........................    73
    Burnett, Larry D., Director, Hawaii High Intensity Drug 
      Trafficking Area, prepared statement of....................    22
    Case, Hon. Ed, a Representative in Congress from the State of 
      Hawaii, prepared statement of..............................    11
    Goodwin, Charles, Special Agent-in-Charge, Honolulu Division, 
      Federal Bureau of Investigation, prepared statement of.....    32
    Grey, Briane, Assistant Special Agent in Charge, Honolulu 
      Office, Drug Enforcement Administration, prepared statement 
      of.........................................................    41
    Kamita, Keith, administrator, narcotics enforcement division, 
      Hawaii State Department of Public Safety, prepared 
      statement of...............................................    58
    Mahuna, Lawrence K., police chief, Hawaii County Police 
      Department, prepared statement of..........................    67
    Salavea, Allen, Office of the Prosecuting Attorney with the 
      Youth Builders, prepared statement of......................    93
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Wasan, Jamal, Lokahi Treatment Program, prepared statement of   100

 
      THE POISONING OF PARADISE: CRYSTAL METHAMPHETAMINE IN HAWAII

                              ----------                              


                         MONDAY, AUGUST 2, 2004

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                   Kailua-Kona, HI.
    The subcommittee met, pursuant to notice, at 9:20 a.m., at 
Kealakehe Intermediate School, 74-5062 Onipaa Street, Kailua-
Kona, HI, Hon. Mark E. Souder (chairman of the subcommittee) 
presiding.
    Present: Representatives Souder and Case.
    Staff present: Nicholas P. Coleman, professional staff 
member/counsel; David Thomasson, congressional fellow; and 
Alena Guagenti, legislative assistant.
    Mr. Souder. Come to order. Good morning and thank you all 
for coming. This hearing continues our subcommittee's work on 
the problem of methamphetamine abuse--a problem that is 
ravaging the State of Hawaii and the entire Nation. I'd like to 
thank Congressman Ed Case for inviting us here to the Big 
Island, and for his support for a bipartisan approach to 
confronting the meth epidemic.
    In 2003, Congressman Case testified before our subcommittee 
about the meth problem in Hawaii, and since then we have 
frequently discussed ways to help communities like this one to 
reduce drug abuse.
    Meth is one of the most powerful and dangerous drugs 
available. A recent study of the effects of meth abuse using 
MRI scans of addicts revealed what one expert called a forest 
fire of brain damage. Addicts' brains lose 11 percent of the 
tissue in the limbic region, controlling mood and emotion, and 
8 percent of the hippocampus region, responsible for forming 
new memories, comparable to the brain deficits created by 
Alzheimer's disease. Here in Hawaii the form of meth called 
crystal or ice is increasing in popularity. It is highly pure 
and extremely addictive.
    Sadly, meth is also one of the easiest drugs to make. It 
can be cooked using common household or agricultural chemicals 
and simple cold medicines, following recipes easily available 
on the Internet.
    The meth here in Hawaii and other States comes from two 
major sources of supply. First, meth comes from the so-called 
superlabs in California and northern Mexico. By the end of the 
1990's these superlabs produced over 70 percent of the Nation's 
supply of meth. The superlabs are operated by large Mexican 
drug trafficking organizations that have used their established 
distribution and supply networks to transport meth throughout 
the country.
    The second major source of meth comes from small, local 
labs that are generally unaffiliated with major trafficking 
organizations. These labs have proliferated throughout the 
country. The total amount of meth actually supplied by these 
labs is relatively small; however, the environmental damage and 
health hazard they create make them a serious problem for local 
communities, particularly the State and local law enforcement 
agencies charged with the duty to uncover and clean them up. In 
my home State of Indiana, for example, more than 20 percent of 
the labs raided by police were discovered only after they had 
exploded and started fires. Children are often found at meth 
labs and have frequently suffered from severe health problems 
as a result of the hazardous chemicals used in drug 
manufacturing.
    Our hearings during the 107th Congress were mostly held in 
Washington and looked at this problem from a national 
perspective. This year, however, we have taken a different 
approach. We have instead been holding hearings in specific 
regions that have been hardest-hit by meth trafficking and 
abuse. In February we held a hearing in northeastern Indiana, 
followed by a hearing in Detroit, Michigan, where large 
quantities of meth precursor chemicals like pseudoephedrine, 
which comes predominantly from Belgium and Holland, were being 
smuggled in until very recently. In June we held a hearing in 
Bentonville, Arkansas where the use of crystal meth is also 
growing rapidly.
    Everywhere we go we hear about many of the same issues; the 
environmental damage caused by the labs; the high costs and 
long hours required for law enforcement agencies to process lab 
sites; the heartbreaking stories of children exposed to drugs 
and chemicals and in need of emergency medical care and a safe 
place to go. We hear about how addictive and deadly this drug 
is and how difficult it is to provide treatment and get meth 
users off of drugs.
    The Bush administration, and especially the Office of 
National Drug Control Policy [ONDCP], has pushed for strong and 
effective action against meth abuse. We will need to take 
action at every level, Federal, State, and local, to respond to 
this problem. Let me briefly mention three issues that need to 
be addressed.
    First, what do we need to do to reduce the supply of meth? 
In the late 1990's the Federal Government responded to the meth 
problem both here and elsewhere with stricter laws against the 
precursor chemical trade and tougher enforcement. The 
proliferation of smaller meth labs, however, means that we 
probably will have to further restrict the ability of meth 
cooks to get precursor chemicals--especially pseudoephedrine. 
Already many States have acted to restrict sales of cold 
medicines and other pseudoephedrine sources. A major question 
Congress must address is whether to enact a national standard 
for these sales, and if so, what form should it take?
    Second, how should we deal with the environmental issues 
created in the wake of a meth lab seizure? We have to ensure 
that the toxic chemicals produced and dumped by lab operators 
are cleaned up, but these criminals rarely have enough money to 
compensate the government for those costs. If we impose the 
costs on unsuspecting landowners or landlords, however, we may 
give them a disincentive to monitor their property and report 
suspicious activity to the police. In California, for example, 
some farmers prefer to bury the remains of meth labs they find 
on their property because if they report them, they will be 
liable for the clean-up costs. We will have to carefully 
consider how we assign the responsibility for the difficult and 
expensive task.
    Finally, how do we get meth addicts into treatment and how 
do we keep young people from starting on meth in the first 
place? We can all agree that education and outreach are vital, 
but the hard part is figuring out what works best. What works 
for marijuana, ecstasy or cocaine may not work as well for 
meth.
    This hearing will address these difficult questions and 
hopefully bring us closer to some answers. Again, I thank 
Congressman Case for inviting us here, and for the assistance 
that he and his staff provided to our subcommittee in setting 
up this hearing. Our first panel of witnesses begins with the 
distinguished Lieutenant Governor of Hawaii, James R. Duke 
Aiona who together with Governor Linda Lingle has provided 
strong leadership in this State on drug abuse issues.
    We next welcome three witnesses who have joined us to 
discuss the Federal Government's response to the meth problem: 
Mr. Larry D. Burnett, Director of the Hawaii High Intensity 
Drug Trafficking Area [HIDTA], administered by the White House 
Office of National Drug Control Policy [ONDCP]; Mr. Charles 
Goodwin, Special Agent in Charge of the FBI's Honolulu 
division; and Mr. Briane Grey, Assistant Special Agent in 
Charge of the Drug Enforcement Administration's Honolulu 
office.
    At a hearing like this, it is vitally important for us to 
hear from the State and local agencies forced to fight on the 
front lines against meth and other illegal drugs. We welcome 
Mayor Harry Kim of the County of Hawaii; Mr. Keith Kamita, 
Chief of the Narcotics Enforcement Division of the Hawaii 
County Police Department; and Mr. Richard Botti, Executive 
Director of the Hawaii Food Industry Association.
    We also welcome four witnesses whose work in the field of 
drug treatment and prevention is of vital importance here in 
Hawaii: Dr. Kevin Kunz of Kona Addiction Services; Mr. Wesley 
Margheim of the Big Island Substance Abuse Council; Mr. Allen 
Salavea of the Hawaii County Prosecutor's Office's Youth 
Builder's Program; and Dr. Jamal Wasan of the Lokahi Treatment 
Program. We thank everyone for taking the time to join us this 
morning and look forward to your testimony. Now to Congressman 
Case for an opening statement.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T8604.001
    
    [GRAPHIC] [TIFF OMITTED] T8604.002
    
    [GRAPHIC] [TIFF OMITTED] T8604.003
    
    Mr. Case. Thank you very much, Mr. Chair. Good morning and 
aloha to all of you. It's good to be back home on my home 
island. Even under these difficult circumstances it's good to 
be here and to be with you and to address the crisis that we 
all face together.
    I want to tell you just a little bit about what is actually 
going on here today. This is the U.S. House Committee on 
Government Reform's Subcommittee on Criminal Justice, Drug 
Policy and Human Resources. Now, that's a fancy way of saying 
that this is the subcommittee, in all subcommittees in the U.S. 
House, is the subcommittee responsible for criminal justice and 
drug policy. It's kuleana is all of our Federal Government's 
law enforcement efforts, especially as they deal with drugs. So 
we have right here the subcommittee, the place in the U.S. 
House that's responsible for formulating overall policy.
    And it's a tremendous opportunity for us to say to the U.S. 
House and to the U.S. Congress and to our Federal Government 
both what our problems are, what our needs are, and what we 
offer to the rest of our country much less to our State. And 
it's a very great pleasure for me to introduce my colleague 
Congressman Mark Souder from Indiana. And I want to tell you 
just a little bit about him so he's more than just Mr. Chair 
here today.
    Congressman Mark Souder was born and raised in Ft. Wayne, 
Indiana. He is the chair of this subcommittee so he's the guy, 
he's the guy that's responsible for this stuff and is going to 
be making decisions in conjunction with his colleagues. He 
still represents Indiana's great Third District, which is 
headquartered right around Ft. Wayne, so he's born and raised 
and representing exactly the district that he grew up in just 
like I am. He attended Notre Dame so if you want to talk 
football with him, I'm sure he'd be happy to do that.
    He went to work in Congress just like me, caught the bug, 
was a business person in his other life, and he is now 
finishing his 10th year in the U.S. House and has been very, 
very involved in the drug policy. You will see that in some of 
his questions, some of his testimony, he knows what he's 
talking about. He worked in this area, he cares, he is the best 
that Congress has to offer to our country.
    He also serves on some other committees as most of us in 
Congress do and he's out here working in many different hats. 
Congressman Souder also serves on the Natural Resources 
Committee. He has a special interest in our country's national 
parks and national wildlife, fisheries and is on those 
subcommittees.
    Yesterday, he spent the entire day touring our national 
parks and national historic areas. I guess I can say this. He's 
going up and spending some time at Hawaii Volcanos National 
Park and maybe, if there's time, he's going to spend some time 
in the rest of our beautiful island.
    He also serves on the U.S. House Select Committee on 
Homeland Security which is a crucial topic of discussion in 
Congress today, especially with the issuance of the 9/11 
Commission report and the President's endorsement of many of 
his recommendations this morning.
    So he has spent time with our military, he's spent time 
with homeland security. He's wearing many hats. Today he's 
wearing the hat trying to help us with ice. So I really want to 
recognize and send a very warm aloha to Congressman Souder. I 
do have a little present for him here and he can open it later, 
but it's a very nice aloha shirt to go with the one he has on 
right here for the remainder of his time out here in Hawaii. 
Thank you very much, Congressman.
    I also want to recognize the ranking minority member on the 
subcommittee Elijah Cummings of Maryland who has demonstrated 
an equal interest in this and this is a bi-partisan/nonpartisan 
effort. You know ice and other drugs don't care what party 
you're in. They don't care what district you represent, from 
whatever parties. We all work together on this.
    Thank you very much, Chairman Souder.
    On behalf of all of my over 600,000 constituents of 
Hawaii's great Second Congressional District, and for all of 
the people of Hawaii, I am especially pleased that my home 
island of Hawaii is hosting this hearing today.
    We in Hawaii share many of the same concerns as others in 
our Nation in regard to the urgent need to support drug 
control, education, prevention, and treatment efforts, 
especially those dealing directly with the scourge of crystal 
methamphetamine or ice. However, our geographic isolation, not 
only from the contiguous United States, but also just in terms 
of the isolation of the ``Neighbor Islands'' from Oahu, as well 
as a number of other unique factors, not the least of which are 
our ethnic and cultural diversity, create unique challenges 
that we need to address here. So we deal with the big picture 
of ice with everybody else in our country, but we also deal 
with unique circumstances that we face right here.
    Of course, general drug abuse has plagued many of our 
communities for decades. And to target what is needed to 
prevent this abuse now and in the future, we have to first 
understand what causes it and then focus our efforts on 
overcoming those causes. And uniquely, it is, in fact, up to 
our Federal Government to take the lead on this issue as it is 
the only effective entity with the resources and the scope and 
ability to coordinate the indispensable multi-pronged approach 
to stamping out drug abuse. So I commend this subcommittee for 
taking the lead.
    Let's be clear first. We know that the roots of drug abuse 
lie largely where educational and economic opportunity are 
lacking and the social and community fabric are torn. Thus, in 
the big picture and long term, our best overall efforts to 
stamp out drug abuse lie in fixing our economies and improving 
our schools and strengthening our families and communities.
    But where drug abuse has taken hold there are four basic 
causes. First, insufficient education of our young people on 
the danger of drugs before they start. Second, law 
enforcement's inability, often because of lack of resources to 
catch, prosecute, and lock up the worst offenders, the dealers 
and the manufacturers. Third, a community's lack of community-
wide involvement in prevention and elimination. We cannot do 
this alone. It takes a community. And fourth, a lack of 
sufficient social local rehabilitation programs to give abusers 
a second chance and bring them back into society. If we do not 
rehabilitate abusers, keep up with them, we keep on creating 
the significant consequences of ice abuse.
    All of this is true in spades with the drug we face most 
directly and critically today, ice. It is truly poisoning 
paradise as we know it.
    Hawaii was one of the first places in our country where the 
drug made its appearance back in the mid 1980's so it is not a 
new drug here. Due to its highly addictive properties, as it is 
almost 90 percent pure in this form, Hawaii now has the 
Nation's highest rate of adults who have tried ice. There are 
many other statistics and they're in my testimony, but we can 
see the link between ice and homicides, ice and child abuse, 
ice and property crime. Perhaps one of the most alarming 
statistics is the reach of ice down to our young people.
    I spent time with the police, local police, on the Island 
of Lanai, just three, 4 days ago. What I try to do is get out 
and spend time. And we were hanging out at the end of the day, 
talking on the front porch of the Island of Lanai's police 
station which is about the size of one-fifth of this room.
    And basically, they said they've seen it down to 12-year-
olds on the Island of Lanai. That is unbelievable.
    So this scourge is an absolute top priority in Hawaii's 
immediate drug elimination efforts. On education, our schools 
and communities are increasingly focusing on working with our 
youth to show the devastation that ice can cause and is 
causing. Our law enforcement community is starting to focus 
much more on attacking ice dealers. All of our needs now 
include some elements of rehabilitation.
    Most encouraging, we now see our communities standing up 
and saying no to ice. This is happening on all of our islands. 
Kahaluu on the Island of Oahu was the first community to hold 
ice breaker meetings, a drug response plan formed on the county 
of Kauai to implement a community-wide approach, the Coalition 
for a Drug-Free Lanai with its recent second year grant from 
the Office of National Drug Control Policy. Over in Wailuku on 
Maui, Thursday we will be visiting a fantastic effort over 
there to take on ice at the community level.
    And here on the Big Island Mayor Kim, with his great 
assistant, Billy Kenoi, who is here with us today spearheaded a 
unique coordinated islandwide attack on ice. And we see many of 
our communities sign waving on Hugs Not Drugs. That's what it's 
going to take, but we do need much more.
    The FBI and the DEA who are with us today and care very 
much about this need, I believe, to station a permanent agent 
on each of our counties on the ground where we do not have a 
Federal presence in order to focus Federal law enforcement 
efforts on ice.
    With our congressional delegation, we've advocated for 
increased funding for the High Intensity Drug Trafficking Area 
which we will hear from today. The Weed and Seed Program is so 
successful throughout our country and through the First 
Congressional District. And general coordination is always 
welcome.
    To sum up, we in Hawaii, one of the hardest hit areas of 
our country with this incredible ice epidemic do, in fact, face 
a crisis. We have the will to address it, but we need help from 
our Federal Government. We need more Federal law enforcement at 
the county and local level. We need preventative education, and 
we need effective rehabilitation.
    Chair Souder, I thank you, again, for bringing the 
subcommittee here. I thank all of the witnesses for your 
participation. I thank the audience for your participation and 
for many of you in the audience, in fact, all of you for your 
hard work, we will, in fact, accomplish this together. Mahalo.
    [The prepared statement of Hon. Ed Case follows:]

    [GRAPHIC] [TIFF OMITTED] T8604.004
    
    [GRAPHIC] [TIFF OMITTED] T8604.005
    
    [GRAPHIC] [TIFF OMITTED] T8604.006
    
    Mr. Souder. Let me explain a little bit about the process 
of how we do our hearings. As Congressman Case mentioned, this 
is a part of the Government Reform Oversight, which is 
historically what's known as the Oversight Committee. We've 
changed the name of the reform because when we do oversight, it 
isn't just to have a hearing. It's trying to figure out what 
we're going to change in the administrative capacity.
    What's unusual about this subcommittee is we also have 
authorization over narcotics issues including the Drug Czar's 
office, and so we need both legislative and oversight and also 
share the speakers drug task force.
    Each witness will have 5 minutes.
    We have a light that's supposed to work that will be green 
for four, yellow for one, red a little more generous, meaning 
another 60 seconds to a few minutes, if your statement doesn't 
work within the 5 minutes. It gives us a chance to ask 
questions, get some interaction.
    Each witness, as you'll hear when we go through the 
procedures, has the ability to submit additional information. 
We want anything you make a reference to to get into the 
hearing record because ultimately this will be a hearing book. 
And in the process of doing this, there is a series of hearings 
in Washington and California and other places over the last 
couple years.
    People can look through it and say, OK, how are they 
tackling the meth issue and what information is there. So if 
you refer to something, it will be good to get a copy of it 
later to put into the hearing record. Also, we may submit 
additional questions as we review it and as we look at some 
things to you to put into the hearing record. If any 
individuals have something they want to submit, either submit 
to our staff here today or Congressman Case's office, we can 
get that into the record as well.
    Let me first go to procedural matters. I ask consent that 
all Members have 5 legislative days to submit written 
statements and questions to the hearing director. Any answers 
to written questions provided by the witnesses are also 
included in the record. No objections, so ordered.
    Second, I ask that all Members present be permitted to 
participate in the hearing. Without objection, so ordered. Now, 
because we're an oversight committee, the oversight being 
Congress, we're the only one that actually swears in its 
witnesses. Historically, we haven't had to do much with that, 
but we had a few hearings where, in fact, we did.
    This committee has heard everything from Whitewater to 
China investigations to Waco to all of those kind of things, 
and it's important that each witness understands that it's not 
just testifying, this is actually oversight to see the laws are 
there so we swear in each witness. So if you would each raise 
your right hand.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative. We appreciate your willingness to 
come and we're going to start with the distinguished Lieutenant 
Governor of Hawaii, the Honorable James Aiona, and we 
appreciate your long-time leadership.

  STATEMENT OF JAMES R. ``DUKE'' AIONA, LIEUTENANT GOVERNOR, 
                        STATE OF HAWAII

    Mr. Aiona. Thank you, Chairman Souder, and of course, 
Congressman Case for this opportunity to address you on this 
matter. I have submitted testimony in this case and if you 
don't mind, I'm going to supplement that. I'm not going to read 
my testimony. I'm going to supplement it.
    I do want to give you a little perspective, and for the 
record, my background, so you'll understand where I'm coming 
from when I make my comments.
    First of all, I'm a father of four children. My oldest is 
21, my youngest is 12. I've been a coach in the community, both 
on the high school level and on the youth level for the past 
20, 25 years.
    I was a prosecutor when I first came out of law school in 
1980 and I was a prosecutor in the career criminal unit for 
about 3 years. I then went to the city Attorney's Office. Then 
in 1990 I was appointed to the Family Court bench and served 
for about 2\1/2\ years, was elevated to the Circuit Court bench 
and served on the criminal calendar for about 4 years and about 
1\1/2\ to 2 years of that I was the first administrative judge 
to the Drug Court Program here in Hawaii.
    I then went back to Family Court and I've been a lifelong 
resident, except for my studies up in Stockton, California, for 
all of my life. So I think I understand the community and where 
we're at at this point in time in regards to this problem 
methamphetamine.
    When I was a prosecutor in 1980, methamphetamine was first 
making its move into the island, so to speak, in a powder form 
known as crank. And subsequently, it has now materialized into 
what we now call ice or ``batu'' and there are many names for 
its form right now.
    But what I have seen is I have seen the proliferation of 
it, not only in the courtroom, but also in the community, I 
think, simply, because of a couple of things.
    First and foremost in the 1980's when cocaine was the No. 1 
drug of choice in Hawaii, 1970's and 1980's, we saw what law 
enforcement did in choking off the supply, not necessarily 
arresting people and putting them in jail and making that a 
deterrent, but basically attacking the supply. And it really 
choked it out to a significant degree. And this same high that 
people had been getting in cocaine they were now seeing it 
happen in methamphetamine and I saw the proliferation happen.
    I think as a result of the fact that methamphetamine is 
something that's manufactured, it's very difficult to eradicate 
simply by attacking the supply. So as such, what I've seen in 
the courtroom has been devastating. As you stated and as 
Congressman Case stated, we've seen the devastation of families 
and children and everything else that could possibly happen.
    I think it all lined up in the stars for me. It was truly 
God's blessing that I was elected to this office and as such 
Governor Lingle has charged me with the task of addressing this 
issue. And as such what we did repeatedly was we went out to 
the communities to get their input. And what really happened 
with that was basically two-fold. At that point in time when we 
got elected back in 2002, I think the community at that point 
in time had really seen enough of what was happening with 
methamphetamine.
    So the level of awareness and making it known to everyone 
in the community had risen to, I would say, beyond belief. And 
we had community meetings, as Congressman Case noted, in 
certain communities where they would go out and wave signs, 
they had rallies, etc., just kind of slow hauled to approaching 
the whole island.
    So we went out to the community, the administration did, in 
talk story events such as this, and just got feedback from 
them. And then in September last year we had for the first time 
ever what we called a Drug Summit in which we brought as many 
participants as possible in the provider field, in law 
enforcement, in the community, etc., to basically come up with 
some recommendations that they felt were needed. And we adopted 
at that point in time a drug control strategy which basically 
is similar to the national policy which is prevention and 
intervention. So we basically adopted that, we got the 
recommendations from the community and right now we are in the 
middle of our working groups, we're calling them ad hoc 
committees, in which they are developing action plans for the 
prevention, for treatment, for law enforcement, for what we 
call community mobilization and also a coordinating branch.
    Now, that's very important because probably the biggest 
feedback we got from the community was the fact that there was 
a lack of collaboration and coordination amongst our various, 
not only State agencies but also our Federal agencies. People 
were duplicating services, there were gaps in the services, 
money was being ineffectively used and deficiently used. And so 
as such a big recommendation was to have some kind of 
coordinating committee or person to deal with all of these 
issues. And we did that in January of this year by appointing 
what we've called a drug liaison in the Lt. Governor's office.
    So we are on the verge right now of basically bringing 
together all of the people I had mentioned, the ad hoc 
committees, with their--what we're calling, their action plans 
and having them submitted to us for implementation.
    I would also note that what had happened is we've stepped 
up our efforts with regards to youth programs. We've stepped up 
our efforts with our underage drinking because we really 
believe that leads to it. We've stepped up our efforts in 
regards to educating not only our children but also the public.
    I think you're going to hear testimony of how our Narcotics 
Enforcement Division has gone out and educated a lot of people 
in regards to the meth labs and the effect that it has and the 
harm it has done in the community. And so what we've done is 
we've really brought it out.
    I've been fortunate to be appointed to the National 
Advisory Committee of SAMHSA, which you well know has been a 
great partner with us. They have provided technical assistance 
at almost every request that we've made, whether it be in 
grants, whether it be in setting up these ad hoc committees 
that we've now set up. During our Summit they've given us some 
support in regards to educating our public with meth labs and I 
can't say enough what SAMHSA has done for us.
    I do want to put a plug in, though, for something that is a 
tremendous breakthrough in regards to treatment; and that is 
this new initiative called Access to Recovery. I know that the 
Bush administration had requested about $200,000,000 and 
Congress had only appropriated $100,000,000. Nevertheless, I 
think it's something that needs to be looked at very carefully. 
I can see nothing but good things coming out of it, and I 
really hope that Congress when that budget comes up again, that 
they will give them a real hard look and really support that 
effort.
    If you talk to the people in the community, people in the 
profession, I should say, they're going to tell you that Access 
to Recovery really is revolutionary in regards to what it's 
going to do and what SAMHSA is doing. SAMHSA is, and I agree 
wholeheartedly with what they're doing, they are now basically 
going out and coordinating with the States, going from the 
executive office, and not putting money out there for various 
treatment programs, but more or less building systems, working 
the interagency relationships between service providers, 
nonprofits and then, of course, on the law enforcement side 
working it that route.
    At our last council meeting we found out that they have now 
partnered with various branches within the Federal Government 
which would includes ONDCP, Justice, Department of Health and 
Human Services.
    I know I've gone over my time, I thank you very much, and, 
of course, I'm open for questions.
    [The prepared statement of Mr. Aiona follows:]

    [GRAPHIC] [TIFF OMITTED] T8604.007
    
    [GRAPHIC] [TIFF OMITTED] T8604.008
    
    Mr. Souder. Thank you. Second witness will be Mr. Burnett, 
head of the HIDTA Hawaii.

STATEMENT OF LARRY D. BURNETT, DIRECTOR, HAWAII HIGH INTENSITY 
                     DRUG TRAFFICKING AREA

    Mr. Burnett. Chairman Souder, I would like to take this 
opportunity to recognize you and Congressman Case for your 
outstanding work in the area of drug law enforcement. As HIDTA 
director, I've had the opportunity to work with you and your 
staffs on drug issues, both, domestically and internationally.
    You're untiring efforts are greatly appreciated.
    The commitment of Congressman Case to the methamphetamine 
epidemic in Hawaii is evident today by holding this hearing in 
your home State. Congratulations.
    Mr. Chairman, as I mentioned in my written statement, the 
State of Hawaii and U.S. territories of the Pacific are 
currently under attack from crystal methamphetamine, commonly 
called ice. The rampant abuse of crystal methamphetamine along 
with the violence and dangers associated with the drug is the 
single most significant drug problem affecting the State. 
That's a point that cannot be overemphasized.
    As you're aware, based on the crystal methamphetamine 
epidemic and other criteria, Hawaii was designated a HIDTA in 
1999. HIDTA designation brings with it and it provides a 
catalyst for genuine coordination and cooperation among 
Hawaii's law enforcement community. Resources donated by 
participating agencies are formed into investigation and 
interdiction strike forces, intelligence gathering groups, and 
support initiatives. By sharing strategic and tactical 
information, the Hawaii HIDTA provides a comprehensive response 
to illicit drug activity by bringing together all available law 
enforcement resources in a united front.
    For our purposes here today Hawaii's drug abuse problem can 
be categorized probably in three tiers and that's how HIDTA 
looks at it. In the first tier are the two drugs that are 
causing the most serious problems, that's crystal 
methamphetamine and marijuana. Arrest and seizure data for both 
these drugs indicate that availability is high. Demand data 
suggests that use of both drugs, along with the consequences of 
that use, is high and increasing.
    The second-tier drugs are cocaine, which is usually crack 
cocaine here, and heroin.
    Cocaine-related arrests and seizures are on an upswing but 
demand data suggests the opposite, the declining prevalence and 
consequences of use. At the same time heroin distribution and 
abuse appears to be diminishing as indicated by the declines in 
arrests, seizures, and reports that we see.
    And the third tier are drugs such as MDMA, GHB, steroids, 
ecstasy, and diverted pharmaceuticals. They are available and 
abused in Hawaii but to a much lesser extent. The focus of 
third-tier drugs appears to be among young party club goers and 
the younger members of our military.
    Hawaii is both a destination and transiting point for the 
West Coast, the mainland United States, Canada, Mexico, and 
Asia. Hawaii is also a source of high potency marijuana to the 
U.S. mainland, Canada, and, even to a lesser extent, for 
Mexico.
    International and local drug trafficking organizations have 
ample opportunity to traffic drugs to, through, and from the 
area because of Hawaii's high volume of international and 
domestic air and sea traffic. The Hawaii HIDTA's primary goal 
is to disrupt and dismantle these organizations.
    For fiscal year 2005 law enforcement organizations will 
contribute a total of 311 full- and part-time law enforcement 
personnel to this effort. I would also like to comment that 
regrettably there remain at this time legal and legislative 
barriers that sometimes impede the ability of law enforcement 
to effectively combat the drug problem. For example, evidence 
obtained from Federal wiretap and consensual encounters remain, 
at this time, inadmissible in Hawaii courts, in the State 
courts. As a result many lower level drug distributors who do 
not meet Federal guidelines, they go unprosecuted in the State 
system. It is not uncommon to find individuals with 30-plus 
arrests still free on the streets.
    Our outlook, I think you will find that coordination and 
cooperation among Hawaii's law enforcement agencies is at an 
all time high. Hawaii remains a target rich environment. We 
believe the maritime seizures of illicit drugs will increase 
with the implementation of the Maritime Transportation Security 
Act. And although its primary purpose is to counter terrorism, 
it will have a fall-out effect on the drugs.
    We are hopeful that proposed legislation will be enacted to 
bring State wiretap laws into line with the rest of the 
country. The Hawaii HIDTA's and its participating member 
agencies will continue to devote resources to identify, 
investigate, disrupt, and dismantle the organizations 
responsible for the spread of methamphetamine across Hawaii and 
our country.
    Thank you for this opportunity to testify before the 
subcommittee. I will be happy to answer questions at the 
appropriate time.
    [The prepared statement of Mr. Burnett follows:]

    [GRAPHIC] [TIFF OMITTED] T8604.009
    
    [GRAPHIC] [TIFF OMITTED] T8604.010
    
    [GRAPHIC] [TIFF OMITTED] T8604.011
    
    [GRAPHIC] [TIFF OMITTED] T8604.012
    
    [GRAPHIC] [TIFF OMITTED] T8604.013
    
    [GRAPHIC] [TIFF OMITTED] T8604.014
    
    [GRAPHIC] [TIFF OMITTED] T8604.015
    
    Mr. Souder. Thank you very much. Our next witness is Mr. 
Charles Goodwin, special agent-in-charge, Honolulu office, for 
the FBI.

STATEMENT OF CHARLES GOODWIN, SPECIAL AGENT-IN-CHARGE, HONOLULU 
           DIVISION, FEDERAL BUREAU OF INVESTIGATION

    Mr. Goodwin. Good morning, Chairman Souder, Congressman 
Case. Thank you for inviting here today to speak to you on the 
problem of crystal methamphetamine trafficking and abuse here 
in Hawaii.
    I also appreciate the opportunity to comment on the FBI's 
efforts in partnership with other Federal Government agencies 
and State and local authorities to address the battle against 
drugs and ice here in Hawaii.
    First, I want to emphasize that the FBI remains committed 
to the fight against illegal drugs in Hawaii and working with 
you to put the drug trafficking organizations out of business. 
As you're all aware, though, through law enforcement reports 
and the news media, ice continues to rank as the most widely 
abused illicit drug in Hawaii. Much of the ice abuse in Hawaii 
is attributed to the drug trafficking organizations which have 
strong ties to both domestic and international organized crime 
enterprises.
    Although the FBI Honolulu Division continues to investigate 
drug trafficking organizations using the Enterprise Theory of 
Investigation; that is, to seek the dismantlement of the entire 
criminal organization and not just individual members, we are 
doing so with a lot less manpower resources.
    After September 11, 2001 the FBI with the blessing of 
Congress reallocated several hundred Special Agents working 
drug investigations to counterterrorism and other investigative 
programs.
    This decision was done clearly out of necessity and it 
provided the Counterterrorism Program with some of the best 
investigators in the FBI. In response to this move, the FBI 
Drug Program bolstered its presence in Hawaii on the High 
Intensity Drug Trafficking Area, Organized Crime Drug 
Enforcement Task Force and other task forces as a force-
multiplier.
    Part of the reasoning behind the reallocation of FBI drug 
investigative resources was the realization that there are 
thousands of other highly committed, qualified, experienced 
State and local law enforcement officials engaged in drug 
investigations. At the Federal level, the DEA, Immigration and 
Customs Enforcement, IRS, ATF, U.S. Coast Guard are all 
valuable assets in the war on drugs.
    The FBI, however, is not abdicating its commitment to drug 
investigations. In the meantime the FBI continues to 
concentrate the vast majority of our FBI drug agents on 
dismantling the largest drug trafficking organization and 
criminal enterprises, those identified by the Attorney 
General's list of 41 Consolidated Priority Organization 
Targets. We also remain committed to the national programs, 
OCDETF and HIDTA, as well as major joint intelligence efforts 
in Hawaii. Bottom line, the FBI remains committed to working 
with you in this fight against illegal drugs.
    Ice is the drug of choice in Hawaii. The sale and use and 
transportation of ice in Hawaii has had a devastating impact on 
all of Hawaiian society. As we are acutely aware, ice tears 
away at the inner fabric of Hawaii. It brings violence to our 
streets, wastes young lives, wreaks havoc on families, saps 
millions of dollars from our economy, and drains the resources 
of our criminal justice and health care systems.
    Drugs such as ice make criminal enterprises across the 
country and around the world richer, stronger, and more 
formidable.
    The specific statistics on how crystal methamphetamine 
affects the overall crime issues is staggering. An estimated 90 
percent of property crime in Hawaii is believed to be drug-
related. In addition, many homicides and other violent crimes, 
including hostage situations, have been associated with ice. In 
2002, U.S. Attorney, Ed Kubo stated that ice had been 
associated with over 90 percent of the confirmed child abuse 
cases. Recently, news articles in Hawaii have reported that 
assaults on police officers have increased fivefold over the 
past 5 years and that the violence associated with ice abuse is 
a contributing factor to that increase.
    The widespread use of ice has also deeply hurt the economy 
and social image of Hawaii. Several studies done by 
universities have reported that Hawaii authorities have spent 
close to half a billion dollars per year on corrections, 
education, and counselling, and other programs relative to the 
ice problem. There are as many as 30,000 ice users in Hawaii 
who spend between $540 million to $1.8 billion annually on 
their habits. Many researchers also believe the manufacturing 
and usage of ice is having a detrimental effect on the 
environment.
    Here in Hawaii the problems with ice transcends beyond the 
typical street dealers. The FBI, in cooperation with other law 
enforcement agencies, has determined that the ice problem 
extends to international boundaries and have strong organized 
crime ties. In Hawaii, traditional Asian organized crime 
organizations distribute ice. Today, Mexican drug trafficking 
organizations and other criminal organizations are becoming 
increasingly more involved in the production and distribution 
of ice.
    In fact, our intelligence indicates that most of the ice in 
Hawaii appears to be produced in Mexico and California. Mexican 
drug trafficking organizations transport ice to Honolulu, Maui, 
and other Hawaiian counties from California and to a lesser 
extent, Las Vegas. Some Asian trafficking organizations, such 
as Filipino, Vietnamese, and Korean organizations transport ice 
to Hawaii via Canada and California to avoid potential customs 
and border patrol inspections conducted at Hawaii ports of 
entry such as the Honolulu International Airport. Hawaii law 
enforcement estimates a large percentage of the ice in Hawaii 
is smuggled through the airport via mailed parcels and couriers 
on commercial flights. We've also intercepted shipments 
arriving by shipping containers from the mainland which are not 
searched.
    I'm going to jump ahead here because I've clearly run out 
of my time, but the main thing the FBI, the strategies that we 
use to fight drugs here in Hawaii, continue to direct 
appropriate investigative and analytical resources to address 
the threats posed by priority targets; encourage the use of 
Title IIIs, criminal pen registers, and subpoenas; encourage 
the use of complex undercover operations; maximize the use of 
specialized drug intelligence sources to fully develop 
investigations of drug trafficking enterprises; consult with 
respective counterparts in DEA to confirm investigative efforts 
are not being duplicated and to identify opportunities for 
joint initiatives and investigations.
    We want to ensure that appropriate deconfliction is shared 
through data bases; ensure initiation and coordination of 
multi-jurisdictional investigations; ensure investigations are 
initiated against priority targets posing the greatest threat 
to the Honolulu Division and Hawaii which are multi-
jurisdictional, regional, and national significance. We want to 
actively participate in ad hoc task forces such as HIDTA 
initiatives. And with that I'll conclude my testimony and 
certainly be available for questioning.
    [The prepared statement of Mr. Goodwin follows:]

    [GRAPHIC] [TIFF OMITTED] T8604.016
    
    [GRAPHIC] [TIFF OMITTED] T8604.017
    
    [GRAPHIC] [TIFF OMITTED] T8604.018
    
    [GRAPHIC] [TIFF OMITTED] T8604.019
    
    [GRAPHIC] [TIFF OMITTED] T8604.020
    
    [GRAPHIC] [TIFF OMITTED] T8604.021
    
    [GRAPHIC] [TIFF OMITTED] T8604.022
    
    Mr. Souder. Thank you very much. Our last witness on the 
first panel is Mr. Briane Grey, Special Agent in Charge, 
Honolulu Office, Los Angeles Field Division of DEA.

 STATEMENT OF BRIANE GREY, ASSISTANT SPECIAL AGENT IN CHARGE, 
        HONOLULU OFFICE, DRUG ENFORCEMENT ADMINISTRATION

    Mr. Grey. Chairman Souder, Congressman Case, and 
distinguished members of the subcommittee, it is a pleasure to 
appear before you today. On behalf of the DEA Administrator 
Karen P. Tandy and Los Angeles Field Division Special Agent in 
Charge Stephen C. Delgado, I would like to thank this 
subcommittee for your continued support of the DEA and its 
mission.
    While Hawaii has always been viewed as a paradise 
destination, it currently has the distinction of being No. 1 
per capita for crystal methamphetamine use in the United 
States. The spread of crystal methamphetamine use has long been 
a problem for the Hawaiian islands and the user population 
continues to grow due to its highly addictive nature.
    Crystal methamphetamine, commonly known as ice, is the No. 
1 drug threat in Hawaii, Guam, and Saipan. In the last 2 years 
Hawaii has seen a significant increase in the amount of crystal 
methamphetamine being distributed and seized.
    According to the Substance Abuse and Mental Health Services 
Administration's Treatment Episode Data Sets, treatment 
admissions for methamphetamine abuse in Hawaii increased from 
1,243 in 1998 to 2,238 in 2002. This rate has steadily 
increased. In 2003, Hawaii was the only State to have crystal 
methamphetamine treatment admissions exceed alcohol abuse 
treatment admissions.
    In Hawaii ice abusers have been linked to violent crimes 
including child abuse, hostage situations, and homicides. Ice 
abusers are also linked to Hawaii's high property crime rate 
which is one of the worst in the Nation. Methamphetamine and 
the violence associated with the drug threaten the well-being 
of all of Hawaii's citizens, continue to challenge all law 
enforcement, health care, and social services entities within 
the State. This epidemic is fueled by the ever increasing 
number of drug trafficking organizations associated with larger 
organizations in Mexico and the U.S. West Coast.
    Ice production and distribution first appeared in Hawaii in 
1985 and is associated with Asian drug trafficking 
organizations. To avoid Hawaii's strict U.S. Customs and Border 
Protection inspections, Asian organizations routinely 
transported drugs from source countries such as Korea, 
Thailand, and the Philippines through Canada to Hawaii via 
California. In the 1990's the trend shifted. Mexican 
organizations became the principal ice suppliers in Hawaii.
    The DEA has recently and successfully emphasized 
investigations targeting the flow of precursor chemicals used 
to produce methamphetamine. Due to the successes of OCDETF 
investigations Operations Mountain Express III and Northern 
Star between 2002 and 2003, U.S. importation of bulk 
pseudoephedrine from Canada dramatically dropped. These 
enforcement successes at the Northern border have forced 
traffickers to import pseudoephedrine to Mexico from Hong Kong, 
increased methamphetamine manufacturing in Mexico.
    Presently, Mexican organizations are producing ice in 
Mexico, California, and southwestern States and use their 
established transportation networks to distribute the drug 
throughout the United States and the Hawaiian islands. 
Clandestine superlabs located in Mexico and the southwestern 
United States are responsible for most of the ice distributed 
in Hawaii.
    Through DEA's State and Local Task Force Program and the 
HIDTA program, the DEA Honolulu District Office has joined 
forces with our State and local partners to address 
methamphetamine-related trends from large Mexican trafficking 
organizations down to small-time producers operating out of 
their homes. In March 2004, an investigation with the Bureau of 
Customs and Border Protection, the DEA Airport Task Force 
seized 20 pounds of crystal methamphetamine concealed inside 
aluminum pipes sent from an individual in Mexico to Honolulu, 
as well as $200,000 in proceeds. At the other end of the chain, 
in February 2004, the Maui Post of Duty arrested an individual 
with 15 grams of ice who was prosecuted federally who allegedly 
supplied high school students and was the source for other 
dealers on Lanai since July 2003.
    The Honolulu District Office has DEA Task Forces in Maui 
and Hilo and at the Honolulu Airport. This team effort has led 
to significant investigations allowing law enforcement to 
jointly attack crystal methamphetamine trafficking.
    A joint investigation between the DEA and Honolulu Office 
of Immigration and Customs Enforcement led to the February 
seizure of five gallons of red phosphorous in the possession of 
a Canadian citizen. The subsequent investigation identified the 
individual as a methamphetamine chemist who was responsible for 
the distribution of the approximately 30 to 40 pounds of ice 
per month in 2002 and early 2003. This investigation eliminated 
a clandestine manufacturing operation based in Canada.
    More recently, the DEA with State and local officers seized 
1.8 kilograms of ice shipped from California to Kihei, Maui and 
1.44 kilograms of ice from two individuals arriving in Honolulu 
from Las Vegas, Nevada. Our Guam office also seized 200 grams 
of liquid methamphetamine sent from the Philippines to Guam.
    The DEA is committed to protecting the American public's 
safety from the serious consequences resulting from the 
methamphetamine threat. The DEA has had a significant impact on 
the trafficking of precursor chemicals and continues to target 
Mexican trafficking organizations controlling the majority of 
the methamphetamine produced and distributed in our country.
    Thank you again for the opportunity to testify before the 
subcommittee today. I will be happy to answer any questions at 
the appropriate time.
    [The prepared statement of Mr. Grey follows:]

    [GRAPHIC] [TIFF OMITTED] T8604.023
    
    [GRAPHIC] [TIFF OMITTED] T8604.024
    
    [GRAPHIC] [TIFF OMITTED] T8604.025
    
    [GRAPHIC] [TIFF OMITTED] T8604.026
    
    Mr. Souder. I thank you each for your testimony. Let me say 
that it's unusual; I've never done this with a lei before, let 
alone without a tie. I appreciate Congressman Case because he 
wore a lei, actually, when he testified in front of the 
committee in Washington. I just want everybody back in Hawaii 
to know that he's very consistent in making statements for his 
home State and his concern on this issue and I appreciate it.
    There are a number of things in your testimony that are 
dramatically different than what we've heard elsewhere. I want 
to make sure that I highlight some of these, both FBI, DEA, and 
I know from talking to HIDTA that you've said this, too, but I 
want to highlight this, 90 percent of property crime is 
believed to be drug related, 90 percent of child abuse, I 
believe you said Mr. Goodwin, was methamphetamine, crystal 
methamphetamine related, assaults on police officers increased 
fivefold over the last 5 years.
    So am I taking from that the associated crime and violence 
from meth, even if meth has been a historic problem, has 
jumped?
    Mr. Goodwin. I think that's a fair assumption and I think 
it's pretty well based on both reports from the media and 
police reports. The incident of violent crimes actually in 
Hawaii is, we believe, down somewhat. But those assaults, for 
instance, aggravated assault, assaults on police officers and 
those personal types of crimes and certainly property crime has 
continued to be on the rise, and we do believe it's directly 
attributed to the methamphetamine problem.
    Mr. Aiona. As far as the child welfare cases and our 
collection of the statistics on the State level, I can't say 
that we have had the best collection system of data available. 
I think the number that you got is an estimate based on field 
interviews and response from social workers who are in the 
field and on the line and reporting back as to what they've 
encountered most recently. I think that's within the past few 
years. And I think it's a good assessment. I don't know if it's 
accurate, but I wouldn't say that's----
    Mr. Souder. Hard.
    Mr. Aiona. Yeah, hard facts.
    Mr. Souder. Now, when you were in Family Court, what we've 
heard around the country is anywhere from 60 to 85 percent of 
all court cases in crime has some nexus with marijuana, 
alcohol, usually poly users and then to meth, which would 
include child support enforcement, divorce cases, and spouse 
abuse.
    Is that true here as well? Is it usually poly drug, and 
here what seems to be more of a relationship with crystal meth 
is a higher percentage?
    Mr. Aiona. Again, I don't have any hard data on that, but 
from my experience I would agree with that wholeheartedly, poly 
substance or multi substance abuse, you're correct. In Drug 
Court that's all I saw. Methamphetamine was usually the drug of 
choice, it usually was, but they'd mix it with marijuana and 
alcohol and cocaine and everything else you can imagine, so 
yes, that's an accurate statement.
    Mr. Souder. Mr. Burnett, when we talked the other day, one 
of the things that we were discussing was how the relationship 
of marijuana to some degree alcohol with crystal 
methamphetamine and the coming down process.
    Could you describe that, somebody maybe high on ice and 
then come down with marijuana?
    Mr. Burnett. I assume you're speaking of the tweaking 
process?
    Mr. Souder. Right.
    Mr. Burnett. When individuals get high on ice, especially 
smoking in the form that we do here in Hawaii, it's an 
immediate rush and it's an extremely high high and a prolonged 
high. It lasts for a long time. But in order to maintain that, 
there is always the opposite side, like anything else, and it's 
called tweaking where you start to twitch and go into a deep 
depression.
    And with ice, and that's part of the problem with violence 
that is associated with it, you go into a real deep depression, 
emotionally and physically. And what we see here is that they 
use marijuana and other drugs in order to mitigate that and try 
and even out that experience and try to take the edge off of 
the depression.
    Mr. Souder. Have any of you seen any ice users who didn't 
use marijuana and/or alcohol.
    Mr. Burnett. I'm sure that there is somewhere. What we 
normally say with our statistics is that almost everybody that 
tests positive, and that's 40 percent of the males that are 
picked up for any crime in the State, that's the highest in the 
Nation, 40 percent test positive for meth. And when they test 
positive for meth, they are poly drug users. It's usually 
accompanied by alcohol and marijuana.
    Mr. Souder. I want to pursue another round of questions 
before I go to Mr. Case. I want to pursue the Canada question a 
little bit. First off, one other thing I want to note for the 
record is several of you said, and I thought it was very 
helpful to understand, the historic ties to Asia which is the 
way we normally think of this, it would have not been self 
evident that Mexican drug trafficking organizations are taking 
over the meth in Hawaii. Walking around and talking to people 
you would not assume that's your major challenge.
    Also, for the record, you're saying that there are fewer 
meth labs because normally in all the other States and we're 
talking Tennessee, Missouri, Kansas, Arkansas, Indiana which 
are the five highest, we're talking labs, even though we have 
these superlabs in California, and here you're basically 
talking about it coming in and then being turned into crystal 
methamphetamine. Is that correct?
    Could you explain to me as someone who sits both on Border 
Committee on Homeland Security and has oversight here and we 
spent a couple years working on border issues, what do you mean 
by this statement?
    And you made this Mr. Goodwin and Mr. Grey made a similar 
and actually, even more specific statement about how the meth, 
crystal meth, comes in through Canada sometimes through 
California and you made the statement to avoid strict custom 
and border patrol inspections conducted in the Hawaii ports of 
entry?
    And I believe you had a case, Mr. Grey, where you talked 
about a recent one where a person came in, Canadian citizen 
came in with five gallons. That wasn't UPS or Fed Ex which most 
of them are, but could you describe what you mean by they can 
get in through Canada easier than Hawaii?
    Mr. Goodwin. First of all, we mentioned that we know the 
large quantities of drugs, first of all, come through Mexico 
and so they'll move through Mexico to the West Coast and then 
can be transhipped to Hawaii.
    We also see precursors coming out of Asia as well. And in 
both cases they can ship product to Canada and then move it 
over land to California or Nevada to move it to Hawaii. And 
coming from the West Coast to Hawaii, they're not subject to 
customs inspection.
    Mr. Souder. Even from Canada.
    Mr. Goodwin. Well, if they tranship it from Canada to 
Nevada, for instance, or California, and then ship it out, then 
it doesn't get looked at coming from the West Coast, the United 
States, to Hawaii. Now, in theory you would look at it between 
Canada and the United States, but the reality there is it's 
pretty much an open border.
    I'd like to also just mention as we talk about more and 
more methamphetamine produced in the United States. But also 
being produced in big quantities in Mexico, moved to the West 
Coast and transhipped. The other thing we're starting to see 
is--we've always seen precursors coming from the Far East, but 
just recently, for instance, the Australian Federal Police 
brought a case to us. It was a superlab that they had 
interdicted in Fiji and it looked like a portable cement mixer. 
It was about three stories high and was capable of producing $1 
billion a year worth of methamphetamine.
    Now, in that particular case it was destined primarily for 
Australia and New Zealand and other Pacific Rim countries. But 
once something like that is established there, moved through 
Guam and Saipan, it would be pretty easy to ship it to Hawaii 
as well.
    Mr. Souder. I'm going to come back for another round on the 
Asia side, but I want to do one more thing coming from our 
mainland West Coast this direction. One of the things we 
documented over and over, we're having a huge problem with 
hydroponic, we'll talk about marijuana in just a minute, but 
the cocaine coming up from Columbia and then meth going up 
California, across the Washington border swapping in British 
Columbia, then coming down and they get their cocaine, heroin 
coming north bringing the hydroponic seeds or marijuana or meth 
precursors down.
    And what you're telling me is the route isn't usually 
Canada to here. What we're seeing is the swapping of the 
cocaine and heroin we're seeing in California going north is 
coming down from Canada, sometimes from Asia, sometimes from 
Belgium, and the Netherlands, which are still the biggest labs. 
Then they swap them and then they go Las Vegas or western 
California are the most logical places and then head this way 
and your meth problems are directly related to marijuana and 
cocaine problem going on the Coast because they're swapping it 
out.
    Is that a fair statement, accurate? Any comments?
    Mr. Grey. Yes, I think that's an accurate assessment. For 
swapping the drugs in the State of California.
    Mr. Souder. Or Washington State?
    Mr. Grey. Washington State. I think the key is getting it 
into the United States once it clears the border there, they 
don't have to go through another critical inspection prior to 
getting it over to Hawaii. And again, they're not talking bulk 
shipments. It can be a pound at a time, five pounds, easily 
able to go on a person's body, Fed Ex shipments are small, air 
cargo freight shipment, so the detection would be much less 
than if it was going across the open port.
    Mr. Souder. It is certainly identified in the Yakima area 
of Washington State a swapping area in Yakima, the Tri Cities, 
that's going heavy into the Midwest as well with fighting 
traffic and going to Georgia and finding swaps that are 
occurring up in that region going north and south of 
California.
    Mr. Burnett. That's exactly right, Chairman.
    What has happened is a lot of the nations out in the 
Pacific, both Australia, New Zealand, and Hong Kong when Hong 
Kong was handed back to the mainland Chinese, they all belonged 
to the Commonwealth, the British Commonwealth, and as such they 
can travel amongst the Commonwealth with relative ease.
    So you have a mass migration of Chinese into British 
Columbia and they bring with them their ties from Asia. And 
there is a criminal group that is attendant with all parts of 
society, and so not only did you get the business but you also 
got the criminal group that preyed upon them that also went to 
British Columbia.
    Then you couple that with the northern border, and as 
you're saying, as you start moving east along the northern 
border, there is a million and one roads where they move all 
the brain trucks back and forth.
    So it is a pretty porous border. And then when it comes 
into Washington, the loads get broken down. And why risk 100 
pounds of meth going to the Midwest or going to Hawaii or Guam, 
it's easier to break them down into one to two pound parcels, 
put them in Fed Ex, U.S. Postal Service, DHL, all of those 
services, and flood the market. All you have to do is look at 
our system we have out here. We have both a domestic and 
international mail branch and they handle millions, millions of 
pieces every month.
    Mr. Souder. Congressman Blackburn is on this subcommittee 
and we're planning to do probably either late fall or early 
next year, the Fed Ex headquarters in Memphis.
    Mr. Case. Thank you, Mr. Chair. I'm going to come back to 
one question at the end for each of you, and I'd like to ask 
the same question of everyone else that is going to testify; 
and that is, this is your Federal Government. Maybe we don't 
look like, at least he does, maybe I don't.
    This is your U.S. Congress, and if you had one thing to 
ask, one thing to ask of your U.S. Congress today to deal with 
meth from the perspective that you take it from, whether it's 
law enforcement, rehabilitation, preventative education, 
whatever, what is that one thing?
    Let me leave that for you to think about, and let me ask 
you because I'm back to the front porch of the Lanai police 
station after a long day with the police officers, County of 
Maui police officers, by the way, that are on the front lines 
and dealing with how to go after the manufacturers. And I asked 
them what's really what you need.
    And I'm going to paraphrase the answer, but what it came 
down to was we don't have the tools, the law enforcement tools 
to catch them. They're moving too fast on us. They mostly come 
in from the outside.
    They come in by airplane, they come in by ferry, they come 
in by jet skis to the north shore, at least this is what they 
think, and they set up operations and they identify pretty 
fast. The Lanai population is 2,500 to 3,000. Everybody pretty 
much knows what's happening.
    But by the time they can get the legal enforcement 
mechanisms in place to bust them, these guys have sold it and 
left the island; or what they told me was the old concept of an 
ice house is fast disappearing. They're really much more into a 
mobile operation where the dealers and sellers are one step 
ahead of the law. And what they have said is that the State law 
enforcement mechanisms aren't fast enough to give them the 
ability to bust them.
    So therefore, what they are doing is they're basically 
skipping the State and going to the Feds because of the 
mechanisms of their rules and their inabilities there to 
respond a lot faster. Now that strikes me as an action of 
necessity but not a particular course of action. We clearly 
want both sides, both Federal and State ability. And it seems 
to me that stretches even more the Federal law enforcement 
system.
    One of you alluded to Federal guidelines for--so you may 
get the most immediate, and that lets those 30 people go back 
on the streets. And it goes back to the point I made earlier 
which is we either need more Federal law enforcement officials 
on the ground in Hawaii, and especially in my Second 
Congressional District, and/or we need somehow to fix the State 
mechanisms so the State law enforcement can take some of the 
load off of you, the Feds, who are stretched out with ice, 
other forms of drugs, not to mention civil law enforcement, not 
to mention homeland security obligations.
    So I guess I want to ask you is that something that is true 
throughout the State, No. 1; No. 2, what are the solutions 
because it seems we need to fix the State law enforcement 
mechanisms and/or No. 2, put Federal law enforcement out there 
in the communities.
    Maybe I can start with you Lieutenant Governor because I 
think that has been an initiative by the Governor to move these 
kind of reasonable modifications to State laws.
    Mr. Aiona. You call it reasonable, but obviously there are 
some people who don't feel that it's reasonable and as such we 
haven't had much success with the legislation that we proposed, 
especially this past legislative session. What we did propose 
were a couple of things.
    First of all, we wanted to bring back the walk and talk 
issue; in other words, what we wanted to do was amend the 
Constitution for the execution of the walk and talk--the tool, 
if you want to call it, law enforcement has successfully used 
back in the 1990's on the local level, on the State level.
    And then, of course, our electronic surveillance of laws, 
what they're calling the adversarial process; in other words, 
how we're going about getting wiretaps, etc. by local law 
enforcement personnel.
    The other thing that we tried was to have a little bit more 
mandatory sentences in regards to people who had been using or 
dealing--that's an issue, when it comes to what amounts, to 
dealer quantities, but we had pushed for more stringent 
sentences, so to speak, in regards to that. Unfortunately, like 
I said, there was resistance on that. There were people that 
felt that it--one, it was too invasive, it was a violation of 
civil rights, they felt it shouldn't happen here in Hawaii. And 
of course, it became to a certain extent a policy issue in 
regards to emphasis being placed maybe more on treatment, as 
opposed to intervention.
    And so what had happened as a result of that is you had the 
continuation of what we're calling act 161 which basically 
allows someone who has a previous arrest who now has a current 
arrest for a drug-related offense to undergo treatment and be 
placed on probation. And that, again, like I said, was a policy 
question that we were dealing with. We weren't in favor of 
that. The administration definitely was not in favor of that. 
Being a proponent of Drug Court, we felt that Drug Court 
provided that access to treatment and yet at the same time 
provided enough of the hammer, so to speak, to deal with that 
problem.
    So your assessment of what you said I agree with it, but I 
don't agree that we should go more Federal law enforcement. I 
think if you talk to everyone who is going to come up here this 
morning, they're going to say we have tremendous collaboration.
    Mr. Burnett said and we have to continue it. And I think 
everything has to shoulder that burden, so to speak, on an 
equal basis, if not more so the State, as opposed to the 
Federal Government.
    The FBI, for instance, doesn't only deal with drug 
enforcement, it deals with terrorism and everything else we 
have going on in this region. So their resources would be 
better used, I would say better used, but you can see the 
balance that they need.
    Mr. Case. That's true in an ideal world. In an ideal world 
we would have a State law enforcement mechanism where you 
could, in fact, go after people with alacrity and commitment, 
but there are handicaps. Representative Voight comments on 
that.
    But I guess what I'm trying to get at here is if we can't 
get there, and this is a policy determination made by the local 
Governor and State legislature, if we can't get there, which I 
think we should, I agree with you, I agree with you, then we 
got to do something. And I don't know where else to go because 
there is a whole level that's not being caught here under the 
circumstances.
    Mr. Aiona. And I want to make one last comment, if I can, 
Congressman. Having HIDTA is obviously an advantage for us, but 
that's also a designation that I would prefer to have in this 
jurisdiction and I'll leave it at that.
    Mr. Case. We want to get to the next panel. A quick comment 
by you on what is the one thing you would ask Congress, just a 
quick comment on the----
    Mr. Burnett. About the State and local?
    Mr. Case. Yes.
    Mr. Burnett. It is a real problem for us, inasmuch as--I 
made the comment about individuals and it is very common to 
have individuals out there with 30 arrests and still out loose 
in the neighborhoods. And these 30 arrests are not like they're 
simple possession charges. We don't go after those kind. These 
30 arrests are assaults. We have burglaries. We have larcenies. 
They have welfare charges against them from our State child 
endangerment. It's a critical problem for us and we need the 
State to be able to step up to the plate and do their job.
    By the same token, from our standpoint, a standpoint where 
we organize strike forces and task forces, it is much easier to 
commingle and build a task force if we have those Federal 
resources on the ground, although our Lieutenant Governor might 
be without a job. I'd probably give that up and get rid of it 
as an issue here. I'd gladly give it up. I have grandkids and 
kids that live here and work here.
    It is important, I think, to have the Federal resources, at 
least as a minimal amount, both here on the Big Island and on 
Kauai where they're totally lacking.
    Mr. Case. One thing from Congress.
    Mr. Goodwin. I can't say anything in just one thing. I want 
to comment that we've got great cooperation and coordination 
with the State and Federal authorities here. The reason they 
really like having the Feds here is because of our ability to 
do wiretaps and our search and seizure and also the minimum 
sentencing guidelines. When we send somebody away for 15 years, 
they're gone.
    Mr. Case. I think the other comment, again from the front 
porch of Lanai, is that the Federal court system moves a little 
faster in terms of dealing with it.
    Mr. Goodwin. We do want resources and from our standpoint, 
from the FBI's standpoint, nearly 600 bodies have been 
refocused from drugs. And drugs really--here in Hawaii, in 
particular, I mean it's a nationwide problem, but it really 
does tear up the fabric of the society. And that's the one 
thing I wish, I could put two more people in Hilo, in addition 
to the two in Kona, and put somebody on Kauai and place them 
where they're needed to further foster the spirit of 
cooperation and coordination that we enjoy in Honolulu and here 
in Kona, Hilo, and Maui.
    Mr. Case. What do you want.
    Mr. Grey. Similar to that, I would agree resources is a big 
issue here, but I think more importantly, let's not forget, 
we're a user State being targeted both by Mexican traffickers 
and Asian traffickers; and that with the identification in 
Hawaii as a paradise, we have the same problems here, if not 
more so, than the rest of the United States.
    So we're in this matter with you and take that with you to 
get the support and resources out here.
    Mr. Case. I want to make sure I get the Lieutenant 
Governor.
    Mr. Aiona. Of course there are many things on the wish 
list, Congressman, but I would like Congress to really raise 
the bar, raise the standard, as far as the substance abuse and 
the effect it has on our family, to raise it not the top 10 
percent, within the top 2 percent; and of course, with that it 
comes from policy statements, but I think some commitment to 
resources, a lot more than what's been happening now.
    And I really believe that Access to Recovery initiative as 
being proposed by SAMHSA at this point in time is something 
that I really, really would like is, more money. Thank you.
    Mr. Goodwin. Just what you're doing right now, hold 
hearings, find out what's effective. In this time of tight 
budgets, make sure that what we are doing is prioritized and we 
get the information to your subcommittees as quick as possible.
    Mr. Souder. I want to make sure we get a couple of 
additional things in the record. My understanding was Hawaii 
has the highest prices for meth.
    Mr. Burnett. If you look at prices on the West Coast, the 
rule of thumb is that Hawaii is about double the West Coast. 
Guam and Saipan are and some of the territories of the Pacific 
are about double here.
    Mr. Souder. And as I recall, you were telling me that one 
of the reasons you see the Mexican trafficking organizations 
moving in this direction is they can make more money.
    Mr. Burnett. That's correct.
    Mr. Souder. I also understood concerning marijuana, that 
we're not even talking about what we're seeing on the West 
Coast. My understanding is some of the THC is up to 40 percent, 
that 20, 30 would be----
    Mr. Burnett. THC, marijuana historically has been fairly 
low, 5, 6, 7 percent. We've intercepted seeds like you were 
talking about coming out of Canada, cross-pollination. Our 
growers here kick back seeds to no one. I can tell you that 
right now. We seized 200 tons of pot out of the State last year 
and kept it from going to, basically to the mainland.
    We have seen some hydro plants that have done as high, I 
believe, I'm aware of about 28 percent THC, but that's about 
the highest. I think Chris Tally was talking to you at a 
meeting before where something was higher, but I'm not sure 
exactly the lab report. That's the highest one I've seen come 
back.
    Mr. Souder. 28 percent. So that would be marijuana almost 
five times to--because we're not going to spend tens of 
millions of dollars here to address one problem because when 
you get up to 28 percent higher and you're approaching meth's 
impact.
    Mr. Burnett. It's a problem and I don't know exactly. We 
haven't seen a lot whole of that here. It is a problem.
    Mr. Souder. You also mentioned across the board which is 
something we don't hear about in the mainland, particularly 
when you're from the West Coast or the islands way out there, 
the concept of Guam, Saipan, the Mariana Islands, the America 
Micronesia, all that type of thing is totally an alien concept.
    You're saying you've seen the stuff coming from the Mexican 
traffickers, you're seeing historic patterns from Asia, and I 
believe that in the superlabs, Mr. Burnett, you expressed some 
concern that China was going to basically knock out the 
Europeans.
    Could any of you elaborate on that and then, Mr. Goodwin, 
if you could explain some of the potential how you're going to 
watch the organizations out of Indonesia and others who 
recently are getting a hold of that drug trade as a means of 
financing and Al Qaeda, their sister organizations?
    Mr. Burnett. What Mr. Goodwin and the FBI talked about was 
this lab that was in the Fiji Islands and it was as big as an 
asphalt batch plant. The precipitator on it alone was almost 
two stories high. It was massive. And it wasn't only there, it 
took off. There are two similar labs in Malaysia and one in 
Manila, in the Philippines, and so there are at least four 
there.
    And each one of those have the opportunity to make about $1 
billion in profit for these organizations. And the individual 
behind this and the financier was Chinese organized crime so I 
mean it's coming. If we get a handle on the Colombians and 
Mexicans, you can almost see where the pressure is going to 
come from. These guys are organized, and that neck of the woods 
is not foreign to the people of Hawaii. That is our ohana. A 
lot of the people that make up this unique blend that we have 
come from the Philippines, come from Asia, and the Pacific Rim.
    Mr. Souder. Not to mention, talk about Vancouver and 
Vietnam getting control.
    Mr. Burnett. We do see that. We see through our 
international branches customs continually picking off 
shipments that go from the harvest into the Midwest because 
there is a huge population there.
    Mr. Souder. Mr. Goodwin, do you have anything to add.
    Mr. Goodwin. I wanted to mention in the Fiji case the 
precursors also came from China and so certainly China is 
really extending its influence through the Pacific Rim as is 
Korea and a number of the other countries.
    The concern for us in terms of narcoterrorism and financing 
is the southern Philippines, Indonesia, some of the largest 
groups of Islamic followers, fundamentalists Muslims. And it's 
probably fair to say that it's potentially the next big 
recruiting ground for Al Qaeda, the J.I., Abu Sayaf which is 
already in the southern Philippines and financing drugs and 
trafficking drugs, using the same routes that you use now to 
move people or to move weapons of mass destruction, that's a 
big concern, and it's a big concern for Hawaii, too.
    We've recently done a study looking at the Philippines and 
Indonesia and the crews that come on boats and the lack of 
oversight. We're really drilling down on that right now with 
those customs and immigration. So we're identifying through 
intelligence and it's some of the new things that we're doing. 
Now we're talking a close look at it.
    Apparently, it's a problem. But these same routes that you 
use to smuggle people and drugs, you could use for smuggling 
money and terrorist financing of criminal enterprises.
    Mr. Souder. We're not talking high percents here. We're 
talking when you have 270 million Muslims in Indonesia, 1 
percent is 2.7 million, one-tenth of 1 percent is 270,000. When 
you're dealing with 23 million in a country like Iraq or 
Afghanistan, it's a totally different base we're looking at.
    Mr. Goodwin. And if you look at the level of poverty in 
those counties and the lack of any law enforcement, in terms of 
recruiting for Al Qaeda and terrorist organizations, it would 
be a very fertile ground. People really don't have anything 
much to live for there. You offer them an opportunity to make 
money through State-sponsored trafficking drugs and the 
opportunities are endless.
    Mr. Souder. I appreciate all your efforts and Mr. Aiona, 
Lieutenant Governor, we appreciate your leadership. One of the 
things from the Federal level that we're looking really hard at 
it, and this is what's partly disturbing about some of the 
State law problems, and that is that we're dealing with. If you 
look at the narcotics question to the degree we don't get it on 
the ground in Columbia, say coca or the meth labs themselves, 
the further we move down into the system, if we fail here and 
fail here, by the time we get to local enforcement, we're down 
to smaller and smaller cases. By the time we get them into 
treatment, that means the system has totally failed them.
    They're in treatment, prevention. We're trying to do the 
best we can, and we need to get more effective at that. But 
there is only a certain amount of dollars that the Federal 
Government is going to put in for treatment into the State if 
the State won't take the initiative and says, unlike the other 
49 States, that we're going to use local law enforcement to go 
after this stuff. We'll have the laws--I understand Hawaii has 
different traditions and it's a newer State and Alaska has a 
little bit of the same questions.
    But when, in fact, you say we want to have a cost shifting 
from 49 States in the mainland, each State has to take care of 
its load, too. We're having this discussion aggressively in 
California because they can't say, oh, we need more dollars for 
marijuana treatment, we need more dollars for treating meth but 
we're not going to take some of the steps with which to address 
the question.
    And I know you've been an advocate of that, and hopefully, 
this hearing helps highlight the interconnection with this 
because when we see this is clearly the highest meth use 
problem we've seen anywhere in the United States, it should be 
a primary focus. Property crime--I mean tourism is your life 
blood. Already just coming over here, I'm hearing certain 
things about how I you should behave in the car, what to do in 
your hotels, where you go. You don't need to have that spread 
through the people who are coming to Hawaii.
    Mr. Aiona. You're right, you're absolutely right. Thank you 
for making those comments. You're absolutely right. Thank you.
    Mr. Souder. Thank you very much for coming.
    Mr. Case. I just want to recognize, for the record, someone 
that is not represented here which you all would agree deserves 
recognition and that's our U.S. Attorney's office and Ed Kubo 
who has been very much a part of the effort and he deserves to 
be recognized. Thank you.
    Mr. Souder. If the second panel will come forward; 
Honorable Harry Kim who is mayor of the county of Hawaii. And I 
understand that means mayor of the city within; Mr. Keith 
Kamita, chief of the Narcotics Division, Hawaii Department of 
Public Safety; Mr. Lawrence Mahuna, police chief of the Hawaii 
County Police Department; and Mr. Richard Botti, executive 
director of the Hawaii Food Industry Administration.
    [Recess.]
    [Witnesses sworn.]
    Mr. Souder. Let the record show is that each of witnesses 
respond inside the affirmative. We're going to start with 
Deputy Mayor William Kenoi, right? Did I get that close?
    Mr. Kenoi. Close enough. I'll go with that.

  STATEMENT OF WILLIAM P. KENOI, EXECUTIVE ASSISTANT TO MAYOR 
                  HARRY KIM, COUNTY OF HAWAII

    Mr. Kenoi. Thank you very much, Mr. Chairman. Chairman 
Souder, Congressman Case, thank you for traveling to Hawaii 
Island for your commitment to finding a solution to this 
terrible problem.
    My name is William P. Kenoi, and I am proud and honored to 
serve Mayor Harry Kim and the people of Hawaii Island as an 
executive assistant tasked with coordinating the communities 
response to ice.
    Three years ago we collectively embarked on a mission, to 
stem the tide of ice that threatened the quality of life for 
our children, our families, and our neighborhoods. We took this 
important first step because the data, statistics, and more 
importantly, the personal stories were impossible to ignore.
    Children were being abused and neglected at an alarming 
rate. An increase in amount and severity of domestic violence 
complaints; horror stories from the emergency rooms; violence 
that stunned the law enforcement community, and a criminal 
justice system that was being crushed by ice. It was time to 
take action.
    Ice has been ravaging our community for between 10 and 15 
years. We couldn't talk about this problem anymore. We needed 
immediate execution and implementation. This would only be 
possible with two key elements; No. 1, broad-based community 
support; and two, the commitment of resource providers at every 
level.
    To this end the Hawaii Island Methamphetamine Summit was 
held in August 2002. This summit brought together everyone in 
the community, business, government, community members, elected 
officials, unions, churches, cultural groups, nonprofits, law 
enforcement, treatment specialists, and prevention and 
education people. This collaboration and focus was 
unprecedented in Hawaii.
    Why did the community rally and the resource providers 
commit? Because ice affected everyone in community. No one was 
untouched by the terrible effects of ice. Ice brought everyone 
in the community to the table to find a solution. The 
collective effort has resulted in substantial progress in the 
past 3 years.
    We knew there was no simple solution to such a complex 
problem. However, if we focused on taking small steps hand in 
hand with the community, we would improve the health and well 
being of the entire community. So our approach was a simple 
one; focus on improving our community's capacity in the areas 
of enforcement, treatment, and prevention.
    We needed to ensure that we didn't just talk about, but 
that we actually improved enforcement capabilities, that we 
funded increased treatment options, and we provided for 
prevention and education that focused on our youth.
    There is no denying that ice threatens our future and our 
way of life. We lack adequate treatment programs and 
alternatives on all islands. We lack treatment options for 
those incarcerated for drug offenses. We lack a transportation 
system that allows youth and families to access important 
programs and services. We lack enough manpower and resources to 
our law enforcement community to eliminate ice. But Chairman 
Souder and Congressman Case, we do not lack community 
awareness, community commitment, and community momentum. And it 
is at the community level that we will be successful in 
eliminating ice from our islands.
    All of us commit to the community that will stand side by 
side with them in this effort. There is no alternative. 
Anything short of a collective, committed, sustained initiative 
we'll fail to save our babies, our children, and our families 
from dying and being torn apart. We have no choice in this 
effort.
    We commit to this effort and support our communities or we 
lose everyone we have.
    Thank you very much for the opportunity to testify before 
the distinguished subcommittee on the U.S. House of 
Representatives.
    Mr. Souder. Thank you very much. Mr. Kamita.

STATEMENT OF KEITH KAMITA, ADMINISTRATOR, NARCOTICS ENFORCEMENT 
       DIVISION, HAWAII STATE DEPARTMENT OF PUBLIC SAFETY

    Mr. Kamita. Thank you, Chairman Souder, Congressman Case. 
My Federal partners that you've heard before us have gone over 
the State's, I guess, methamphetamine problem quite well. I 
want to touch on a section that the State is looking at and 
basically it's the unlawful manufacture of crystal 
methamphetamine here in Hawaii.
    What we are seeing is not the big superlabs, but we are 
seeing small laboratories, mom-and-pop laboratories, where they 
are using every day household products such as pseudoephedrine, 
red phosphorous, iodine to manufacture small batches of 
methamphetamine which causes just as much danger as a superlab 
to the neighbors here in Hawaii.
    These laboratories that cook up small batches are posing 
just as much danger as these superlabs by dumping their waste 
in the ground, by letting and venting their methamphetamine 
fumes, I would say, to their neighbors.
    In Hawaii, we have had a very little amount of small labs, 
full synthesis laboratories where they're using red phosphorous 
and iodine, but we have had many conversion labs where they are 
bringing in the methamphetamine from California and just icing 
it up here in Hawaii.
    In Hawaii we have a problem with monitoring certain 
precursor chemicals, one of which is pseudoephedrine. Hawaii's 
law right now is less than that of Federal law. We do not or we 
do have a full exemption on pseudoephedrine and ephedrine 
combination products. We are looking toward the Federal 
Government and utilizing their laws which do put on some 
restriction which is called Safe Harbor Products, anything 
which is three grams in a blister pack, such as something like 
this that is sold here in Hawaii every day. All of Hawaii's 
pseudoephedrine that we're finding in these laboratories are 
blister packs.
    What we ask of the Federal Government is that you look at 
your law regarding blister packs, and hopefully, reevaluate 
that these blister packs that are utilized in laboratories they 
do not deter the meth user from manufacturing. These blister 
packs were made, I guess, as an ease to the consumer. However, 
a person on methamphetamine doesn't mind punching out 300 to 
1,000 of these tablets, just sitting there and doing it.
    The blister pack law, I think, is outdated and that 
exemption should be taken away. And to answer your question, 
that one thing the Federal Government can do for us, is to 
review that law. We don't want to make this a Schedule V 
controlled substance. The next best step is to look at some 
regulation. And we have worked with small retail shops and our 
Long's Drugs and other stores at educating and we did 98 
presentations last year, educating both the public and 
retailers about the dangers of methamphetamine and how it's 
manufactured. We are working with, as a partnership, with Mr. 
Botti and some of the other people who are selling these over-
the-counter items.
    In ending, that's the one thing you can help us with. Thank 
you very much. Any questions, I'll answer later.
    [The prepared statement of Mr. Kamita follows:]

    [GRAPHIC] [TIFF OMITTED] T8604.027
    
    [GRAPHIC] [TIFF OMITTED] T8604.028
    
    [GRAPHIC] [TIFF OMITTED] T8604.029
    
    [GRAPHIC] [TIFF OMITTED] T8604.030
    
    [GRAPHIC] [TIFF OMITTED] T8604.031
    
    [GRAPHIC] [TIFF OMITTED] T8604.032
    
    [GRAPHIC] [TIFF OMITTED] T8604.033
    
    Mr. Souder. Thank you. Chief Mahuna.

 STATEMENT OF LAWRENCE K. MAHUNA, POLICE CHIEF, HAWAII COUNTY 
                       POLICE DEPARTMENT

    Mr. Mahuna. Chairman Souder, Congressman Case, it's a 
pleasure to be here to look at our ice, what I would call, 
epidemic. We are a paradise. We have long-standing 
relationships. We have ohanas, which means families, that have 
been broken apart, families being affected. I've lived in areas 
that have been affected by ice houses.
    Like September 11, it's changed the course in the way we 
travel, ice has changed the course of the way people live in 
their own neighborhoods. People no longer can leave their house 
unlocked, they can't leave their garage with items such as lawn 
mowers and that type of thing. We're seeing an increase in 
violence, both domestic violence and violence in nightclubs, 
violence in general, violence toward police officers.
    So we're, basically, looking at trying to cooperate with 
our Federal partners, trying to cope with the lack of personnel 
because I think that's one of the ways that the Federal 
Government could help, is to help and assist us in having more 
FBI agents, more DEA agents, more ATF agents, customs agents 
here, because as Mr. Kamita said we don't have these big 
laboratories, we have small ones.
    And yes, they are as insidious as these big giant labs. 
However, what is more insidious is that this drug is a 
generation killer. It is not a drug that we can say, well, 
maybe we can treat these people and the treatment of these 
individuals is not real successful, No. 1; No. 2, when you talk 
to child protective people, these people that use ice are one 
of the few people that don't want their children back. And 
that's what you always find at an ice house.
    You'll find living conditions that you wouldn't have an 
animal live in, No. 1. You'll find young children. You'll find 
poly use of drugs. You'll find at least one or two pregnant 
women. You'll find high rates of domestic violence, and you 
will have people that are afraid to leave their houses for fear 
that either their house is going to be entered and their 
valuable items taken. And when we talk about valuable items, 
value is based upon what you feel.
    I've had a good friend that had poi pounders that are 200 
years old that were in the family stolen and sold for $10. 
These things are irreplaceable things, these things that affect 
the heart and soul of people on this island.
    It has affected people from children 12 years old, 11 years 
old, as far as selling the drug. We've caught kids on campus 
that are 13 years old with 10, 12 grams of ice so they can 
sell, and they've been instructed by the parents to go and sell 
these drugs because No. 1, if the kid gets caught, he or she 
does not face the same kind of penalties as, say, an adult 
would selling it in the school.
    So we have to set up two task forces in the police 
department to strictly look at ice itself, but we have not only 
looked at the big organization. One of our issues here is to 
dismantle the large organizations, of course. But the other 
issue is to take away the social terrorism that our people are 
actually involved in day-to-day. And when you live that thing 
day-to-day, that is pure terrorism to me. And we ask that the 
Federal Government, hopefully, will step up outside of the main 
island of Oahu and look at the smaller islands and the bigger 
islands and provide us with adequate funds, adequate resources. 
And I think it's a holistic way of looking at it.
    The community has to get involved and has been involved. 
The mayor's office and everybody else, treatment people, the 
demand reduction people. So I plead with you to help the people 
that have lived here hundreds of years. You're taking away 
their source of who they are and what they are and where 
they're coming from. Thank you very much.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Mahuna follows:]

    [GRAPHIC] [TIFF OMITTED] T8604.034
    
    [GRAPHIC] [TIFF OMITTED] T8604.035
    
    [GRAPHIC] [TIFF OMITTED] T8604.036
    
    [GRAPHIC] [TIFF OMITTED] T8604.037
    
  STATEMENT OF RICHARD BOTTI, EXECUTIVE DIRECTOR, HAWAII FOOD 
                      INDUSTRY ASSOCIATION

    Mr. Botti. Thank you, Chairman Souder and Representative 
Case for the opportunity to testify before your subcommittee. 
I'm the President of the Hawaii Food Industry, a trade 
association, representing over 225 of Hawaii retailers, 
distributors, and suppliers of food and related items.
    I'm here to express our concerns about the placement of 
pseudoephedrine on Schedule V where commonly sold medicine 
products would be required to be placed behind the pharmacy 
counter, sold only by a pharmacy and customers would be 
required to show identification and sign a register when they 
made the purchases.
    Retailers would be forced to eliminate the variety or 
products and customers would be denied access and availability. 
Most store do not have a pharmacy, thus Schedule V would mean 
that most over-the-counter cold and allergy medicines could not 
be purchased at airports, hotel gift shops, convenience stores, 
or any other retail outlet that does not have a pharmacist on 
duty.
    Schedule V would also present a public health problem 
because it would limit the amount of medicine that families can 
legitimately purchase in 1 month. Because there is no central 
recording of all pseudoephedrine purchases in the State, this 
provision will be impossible to implement and law enforcement 
would have difficulty enforcing the law without going store to 
store to compare names in the log books.
    Schedule V will have no impact on internet sales of 
pseudoephedrine. FDA and U.S. Customs have testified before 
Congress that they are able to inspect less than 5 percent of 
drug packages that go through U.S. Postal facilities from 
overseas.
    Schedule V places an unfair burden on retailers and their 
employees, most of whom are trying to do the right thing.
    We agree that our industry has a responsibility to help in 
this crisis we face. We are taking action. Without the 
placement of pseudoephedrine on Schedule V, the Hawaii Food 
Industry is supporting what we call Meth Watch that started in 
Kansas 2001 and has a proven track record of success with the 
reduction and sales of pseudoephedrine for illegal purposes.
    It has reduced the number of meth labs in the State. It has 
also resulted in dramatic reductions in the theft of products 
used to make meth.
    Most important, it addresses a larger problem.
    It involves the whole community, law enforcement, 
retailers, business leaders, and citizens through the education 
and prevention efforts and it appears to be having an impact on 
actual meth usage.
    There is, however, an important element that law 
enforcement needs; that is, a list of all retailers that sell 
targeted products. For this reason we support the registration 
of all retailers in the State who sell OTC or over-the-counter 
drugs, medicines, that contain pseudoephedrine. This will 
provide law enforcement with an accurate list of where the 
medicines are being sold. Comparing this list with distribution 
data that is available under Federal law will allow law 
enforcement to determine whether stores are selling excessive 
amounts.
    HFIA acknowledges that serious action must be taken to 
prevent the diversion of precursor chemicals to meth labs, and 
we want to be a part of the solution. There are less 
restrictive alternatives to Schedule V that include many of the 
things that I mentioned at the beginning of my testimony. 
Demand reduction, prevention, education and partnerships with 
law enforcement will serve the community at large. There is 
much that we can do to reduce the meth problem in this State 
without placing unreasonable burdens on consumers to purchase 
the medicines they need and on the retailers who provide them.
    Added to our testimony I would like to include what we will 
do without a law and the logo for the Meth Watch program that 
is taken off from the Kansas City one. Thank you.
    [The prepared statement of Mr. Botti follows:]

    [GRAPHIC] [TIFF OMITTED] T8604.038
    
    [GRAPHIC] [TIFF OMITTED] T8604.039
    
    [GRAPHIC] [TIFF OMITTED] T8604.040
    
    Mr. Souder. Thank you each for your testimony.
    I think I'm going to start backward with the Meth Watch 
program and tying this in with the blister pack question. Then 
I'll move to Mr. Case and come back to Mr. Kenoi. One of the 
things the Big Island received--let me start with this.
    Did the grant that came in the appropriations process come 
to the Big Island directly? Was it solely for this island? What 
amount did you get in the appropriation bill? Was it $5 
million?
    Mr. Kenoi. Last year it was $4 million. It went to the 
Hawaii Community Foundation to administer.
    This year it's $4.5, but it's going to be--last year we 
received for the Hawaii Island meth initiative, we received $4 
million. That moneys went from Department of Justice to the 
Community Oriented Police and Services Program to the Hawaii 
Community Foundation for a couple of reasons.
    One, they had the grant making capability to administer a 
broad-based initiative that included enforcement, treatment, 
and prevention. Two, they had a long-standing commitment of 
grant making to the community, grass roots level, and for their 
reputation for honesty and integrity. Hawaii County, 
unfortunately, didn't have the administrative capability to 
administer this grant.
    We were fortunate enough to secure a second round of 
funding, but that second round of funding in the amount of $4.5 
million will be shared equally amongst Kauai, Maui, Molokai, 
Lanai, and Hawaii Island. And in the spirit of aloha we are 
happy to share that with our fellow residents because everybody 
in Hawaii is suffering from this drug.
    Mr. Souder. And in this drug plan you gave me, does it have 
a split out of what you did with the $4.5 million.
    Mr. Kenoi. There is a breakdown. That was done before we, 
actually, issued all of the moneys, but I broke it down exactly 
how we did.
    What we did, just general for you, Mr. Chairman, is $1 
million went to enforcement. Under that enforcement 525,000 
went to HPD. We created an ice task force in east and west 
Hawaii. We created an anti-smuggling unit here on Hawaii Island 
based on west Hawaii because of the amount of drugs that are 
coming in, being targeted to Hawaii with the direct flights 
from international, as well as source city destinations on the 
West Coast.
    We also used that money under the enforcement arena, gave a 
couple hundred thousand to the Prosecutor's Office to have a 
drug prosecutor designated in both east and west Hawaii so that 
all of the cases that were being generated by HPD could be 
addressed at the Prosecutor's level.
    Another couple hundred thousand went to the Judiciary and 
the Hawaii Island Drug Court both in east and east Hawaii so 
that there was an alternative to incarceration for those who 
wanted and needed treatment. So that was the enforcement 
component.
    Under the treatment component we, actually, put $1.5 
million into treatment; $500,000 went equally to every 
treatment provider around Hawaii Island, $100,000 a piece, not 
for existing treatment but for each of the programs to expand 
treatment services on the island.
    A million dollars that was in the treatment balance went to 
the establishment of an adolescent residential treatment 
program for Hawaii Island. What we found out, Chairman Souder, 
was that all of our adolescents who need high end treatment 
were being sent off island to Maui, Kauai. We were sending 
teenagers as young as 13, pulling them out of their 
communities, away from their schools, away from everything they 
knew, and sending them without any support to a residential 
program off island.
    We had been doing this for decades, failing miserably at 
it. And we didn't want to just take our kids, stick them in a 
home, give them a drug counselor, and say now you have 
residential treatment, we did our part. We felt like if our 
children are our most precious resources, then let us give them 
the best possible residential program we could. To that end, a 
million came out of this grant; 900,000 came from SAMHSA.
    Mr. Souder. That's on top of the $4.5 million.
    Mr. Kenoi. Yes, on top. And we were able to secure $300,000 
from the State legislature last year for a total of $2.2 
million and that program just opened a couple weeks ago in 
Laupahoehoe, 14 acres. It's a community-based, culturally 
based, and experientially based program so that our kids are 
active, they're participating in cultural programs, they're 
using the ocean, the land to help them heal.
    So we're really proud of that initiative, taking that step, 
because people said it's out of your area of jurisdiction, it's 
out of your area of expertise, and you have no money, you're 
reaching too far. We said if we fail, we fail, but we've got to 
try. So we were able to pull that together.
    The other 1.5 went into prevention and demand reduction. 
And what we did was we went around the island and we held grant 
seminars and grant workshops and we wanted to get the balance 
of the resources into the community and asked existing programs 
and service providers to come forward and submit grants as to 
how they would utilize recreational, cultural, art activities 
for youth as a way to reduce the demand for crystal meth and 
ice. And these include island-wide mentoring programs, 
supplementing the Boys and Girls Club. And we did this island 
wide because we have a 4,028 square mile island populated by 
150,000 people lacking in an adequate transportation system.
    So given that we couldn't do one or two programs. We'd have 
to do programs in all of our communities.
    So we set up an independent review panel and we asked 
people to solicit and provide technical support.
    Mr. Souder. Did you say $2 million for prevention.
    Mr. Kenoi. $1.5.
    Mr. Souder. $1.5 in three categories.
    Mr. Kenoi. Yeah, and included in the 1.5 for prevention is 
the administrative costs, the evaluation costs to understand if 
we're achieving our outcomes, do we have measurable outcomes, 
are we achieving our goals and objectives.
    Mr. Souder. And were those 12 month programs, had to be 
done within 12 months, or----
    Mr. Kenoi. We got an extension. It was Federal moneys that 
came down, we got it announced, President Bush post September 
11 didn't sign any of the budgets except defense appropriations 
and so everything went back, it's on the omnibus bill, then it 
came out, then DOJ, and Department of Justice----
    Mr. Souder. It's basically 12 months. You didn't ask people 
for like a 3-year prevention program.
    Mr. Kenoi. Yeah, we asked people for 1 year with the 
understanding that we'll probably stretch this money over 2 
years because it's a model program. It hasn't been done 
anywhere else in the country. As you know, DOJ top moneys are 
enforcement based usually resources and we asked DOJ to help 
us, work with us and let's make this an across the spectrum 
program, and they've been very cooperative at the Federal 
level.
    There was hesitancy on their part initially like what is 
this adolescent residential treatment. This is Department of 
Justice moneys. What is this island-wide mentoring program so 
the youth can connect with the career or vocation or 
opportunity; how does that relate to drug abuse and we had to 
go and explain using the data that we had that we can't just 
hire more police officers, we can't just build more prisons. We 
got to reach our children. We got to reach our families.
    Mr. Souder. How many people are there on the Big Island.
    Mr. Kenoi. Approximately, 150,000. I've heard from 148 to 
162, somewhere thereabouts.
    Mr. Souder. One of the reasons we need to have good 
monitoring is to see some reaction. This grant is the biggest 
grant that's gone anywhere in the United States for meth. The 
standard is a million, and those usually cover whole States; 
that $4.5 million for 150,000 people means it's less than half 
the size of my hometown. It's less than half the size of some 
of my rural counties, and it's less than half the size of two 
other counties I have.
    This is incredibly intensive dollars in a problem to 
address the meth, particularly when you add in 900,000 SAMHSA 
on top of it and you're trying to do it in 12 months because 
often this size grant would be over 3 years in an area that may 
address 3 million people.
    And so if you don't see some results that are fairly 
dramatic, it calls into question whether money is really going 
to have much of a reaction.
    Now, the adolescent youth facility, there the $2.2 million 
was allotted in the structure, was it?
    Mr. Kenoi. It was both CIP, as well as operational.
    Mr. Souder. What would you say was the split of those 
dollars?
    Mr. Kenoi. We issued our request for proposal, we're 
talking 300,000 CIP, the rest operational. Now, the cost for an 
adolescent for treatment is between 275 and $325 per day, per 
bed. So just an 8-bed residential facility, it's $100,000 per 
bed per year to treat one of our children for dramatic 
substance abuse addiction. So it's $800,000 for 1 year just 
operational because when you're dealing with adolescents, 
you're dealing with 24-hour care, 7 days a week, both 
educational care, healthcare, and substance abuse counseling so 
it's rather intensive and costly.
    And that's the reason we haven't had--if you're on the 
mainland and you need residential treatment, your parents can 
drive 2 hours to see you, to support you. Here, you're sent on 
an airplane that's very expensive, and you might not be seen by 
your family or friends for another 4 or 5 months.
    It was something we needed to do to step up. I mean how can 
we say we have the highest rate of crystal meth abuse and 
substance abuse in the entire Nation and we ask our children to 
step forward and ask for help and when we do so, we pull them 
away and send them away.
    That caused incredible damage and it really makes a farce 
of any initiative. You cannot say we have the highest rate of 
substance abuse of our adolescents, ask for money based on that 
statistic, and then when we get those resources, we say, oooh, 
it's too expensive, it's a high risk investment.
    Mr. Souder. For example, in Montana where you have people 
spread out 1,200 miles, they can't stay in their home area. 
Now, it is different moving islands and the cultures are 
difficult, and I understand that, but it's not like in the 
mountain West we don't have similar things. If somebody from my 
district needs adolescent care, they may have to go a minimum 
of 6 hours to the other end of the State, for example, and I'm 
in a pretty heavily populated area.
    I agree it's a little bit more of a mental challenge 
because I'm trying to get adjusted as I've been here to this 
concept of ex-pats, people who have left here when you say you 
don't have job opportunities for young people to stay on the 
islands and they want to stay on the islands, it's like, well, 
that's true in every State because less than 40 percent of the 
people, sometimes as low as 20 percent stay in their home 
State. We're a highly mobile Nation.
    But the difference is you're way out in the middle of the 
ocean and water between the different islands and there is a 
much more of a--almost a--particularly among the native 
Hawaiian population some of the other immigrant groups have 
fixation to land in the immediate area more like the Native 
American nations inside the United States. And that presents a 
different type of a challenge, much like what happened in the 
Indian schools in the West which were not particularly 
effective when they moved the kids from the reservation into 
Phoenix, say, and the impact on the education system.
    So I agree it's a different challenge and I'm trying to 
work that through. On the other hand, it's not unusual that 
young people have to move long distances away from their 
families all over the United States and Alaska, for example. 
Let me yield to.
    Mr. Case. Do you want to make a followup.
    Mr. Kenoi. Yes. I completely agree with you, and there are 
times when you need to be sent off island when there are too 
many negative dynamics around them in their home area. I 
completely agree with you, Chairman Souder, and we understood 
it from day 1, that we were fortunate we were given an 
opportunity to be a model program. We knew that we were getting 
resources that weren't available to other communities across 
this entire country.
    So it wasn't an idea of let's get this money and do our 
thing with it. It was give us the opportunity with these 
resources to see how we can create a unique program. And if 
we're effective, we can replicate this elsewhere in the 
country. Instead of giving a little bit and guessing what works 
and what doesn't work, let us be the guinea pig, if you will, 
let us be a test.
    And I think on our island community has done a good job 
with it. We'll see with the specific data and measurables. But 
we have a community that the mayor, the police chief, the 
prosecutor are all on the same page and committed. We're 
looking at a community that anywhere you go on the island, 
people come out, they respond, they take the time to be there.
    People put aside their political and personal differences, 
ideological differences, and understand that the only way we're 
going to succeed is if we collectively and collaboratively work 
together. So we understand that. This is a unique opportunity 
and we feel the importance of doing right by it.
    Mr. Case. Just staying with the question because I think 
you're exactly right, Billy, this was represented to the 
Congress and Congress approved it and through Senator Inouye's 
efforts a test, a national test. This is the model. What works 
and what doesn't?
    So with that there is an opportunity, a tremendous 
opportunity that, frankly, the rest of our State doesn't have 
but also a tremendous responsibility. And I think there is also 
a responsibility at the end of the day to recognize and 
honestly assess what the results were. Because I think what I'm 
hearing in the Chair's questions are basically we do have to 
analyze the cost effectiveness at the end of the day.
    Are there any results--not results, do you have any sense 
of what really is working and what is still open for question? 
Do we know, for example, in your opinion, that the moneys 
allocated to, for example, we spent the whole first panel 
talking about law enforcement, trying to give our law 
enforcement community the tools it needs. And it doesn't have 
the tools. It doesn't have the tools in the State books, and it 
doesn't have the tools within the Federal reach or both really, 
and you have supplemented in that way. You got people out in 
the community on a law enforcement basis. Rehabilitation, we've 
always known that was expensive and we have never devoted these 
kind of resources to it. Preventative education has always been 
touted as the way to go but at the expense of rehabilitation.
    Is it honestly too early to give the committee any 
indication of what really is a slam dunk or what is out there? 
Do you have any answers?
    Mr. Kenoi. Yes, I'll take a stab at that because I'm 
constantly asking and curious. Nobody is going to stand up and 
say this is what we know. For example, SAMHSA's directory, I 
sent a letter to every chemical dependency, substance abuse 
agency, office, university, department across the country just 
to see and ask do we know what works.
    It's amazing how much billions of dollars we spend every 
year on substance abuse related issues and a lot of people 
still shrug, they're still not sure. That's no reason to sit 
around and--you know, analysis by paralysis.
    But to get back to your question what works, I will say 
this. We contracted with the University of Hawaii Manoa, Center 
for the Family. They do excellent work in terms of evaluating 
programs and resources and it's an independent review of 
resources and programs and services and how effective, what is 
the effectiveness of that.
    But if you ask me, walking around, because people ask every 
day, you go to a family party, somebody will stop you, how's it 
going, what's working. Senator Inouye was here a couple weeks 
ago and we had a briefing from HPD, and they used what 
indicators they had, whether it's working. Price on the street 
for crystal meth doubled. That's an indication that things are 
working. We created an ice hotline.
    The community's No. 1 concern, police/law enforcement not 
effective. Ice house on my street 5 years, 3 years, 6 months, 
nobody is doing anything. That ice house is a plague on our 
community and on our children. We started an ice hotline, I 
think, maybe 50, 60 calls a week, people saying what can we do 
with this ice house. And what we did with this ice hotline--I 
want to give Chief Mahuna credit for this, is that we 
documented every call, so that when a person called in to speak 
to a sergeant and the next time a patrolman and the next time 
dispatch.
    They documented every call. Now we have one to two 
complaints a week.
    Mr. Case. Were those efforts funded out of the money; in 
other words, you had the resources to do that out of the moneys 
that were provided.
    Mr. Kenoi. What we were told when we were given Federal 
moneys is that you guys have to get State moneys and county 
moneys put forward so that it's not just all of us relaying on 
the State, and this was part of the county's contribution, to 
supplement the Federal moneys.
    So that's why we were told right off the top by Senator 
Inouye's office, as well as yourself, Congressman Case, is that 
when you get congressional money, you can't just ask Congress 
and the Federal Government to step up and pay for it. The 
community has to do their part, the county government has to 
put in something, and the State, you guys have to ask the State 
legislature, and they stepped for us and supplemented only what 
little they put. Those are the indicators that are working.
    I've had people stop me as recently as last week telling me 
thank you. I said, it's not me, it's the communities. I'm just 
trying to do my job to help the communities. They said, you 
know, 3 years ago we wouldn't go to the beach anymore, Billy. 
We wouldn't go to the parks, it was scary. It seemed like the 
drug dealers and the people who were using and dealing owned 
the public areas. And now it feels safe, we all go out, 
families use the community parks, they use the beaches, there 
is no fear. People were terrified a couple years ago, scared. 
Nobody wanted to even talk to me about the problem and these 
are anecdotal. It's not documentation.
    But I think if you were to ask most people in this 
community for their fair opinion, I think people will say that 
it's not magic, there are still bad things going on, but have 
we progressed. Have these resources made a difference? 
Absolutely.
    The biggest difference is we always ask communities to do 
it themselves, to step up to the plate because that's true 
sustainability. These moneys will come and these moneys will 
go. That's the reality. Grants come and grants go. But the 
community stays, and they're the key to sustainability. But 
communities won't participate if they feel they're just being 
given lip service.
    If the media is there and there is a big clap of hands and 
everybody rah-rah and all these promises made and 6 months, a 
year down the road, nothing happens, they're not coming back to 
the meeting. In fact, you're going to have twice a hard time 
for getting them back the next time, whatever the next issue 
might be, affordable housing, homelessness, whatever, economic 
development.
    But the reason this works and the reason we're 3 years in 
and people care and people participate is because the 
government did step up and there are resources to address 
communities needs and there is a difference being made, so 
people are willing to participate.
    Mr. Case. Chief Mahuna, thank you for the true manao. That 
was very well put. Comments on the first panel's observations 
on the limitations on your powers and abilities to do what you 
think you need to do to bust people.
    Were the first panel's observations or limitations on State 
law--and what I heard on Lanai, your officers actually 
utilizing Federal resources because the State says it doesn't 
work down on the street, is that your experience here on the 
Island of Hawaii as well?
    Mr. Mahuna. I think it's a fair assessment to be made. I 
think every case may require a wiretap, every case may look at 
large organizations that affect our island because for Federal, 
simply the fact that the laws are not the same. The adversary 
hearing when it comes to the wiretap is a hindrance. The 
unconstitutionality of the ``walk and talk'' inhibits us from 
doing our job.
    So what we've done and successfully done is use island work 
in conjunction with our cohorts on the Federal level and I 
think we've become very successful. We've looked at other 
intensive ways.
    When I look at the terror that people feel, when a parent 
comes up to me and says thank you very much for arresting my 
child with tears in their eyes, you don't see that. Usually, 
you get a pie in the face for arresting my kid.
    In small rural areas where we didn't have the type of law 
enforcement presence, we went down there and we cleaned up a 
bunch of ice houses. And they said, my God, thank you very much 
because it makes them breathe better. It makes the fear level 
decrease and the cooperativeness increase. It gives them a 
feeling that someone cares about them.
    So the task forces were developed. Yes, we are looking at 
the dismantling of large meth labs and meth organizations, but 
we're also looking at those ice houses, the ones that plague 
our people more than anything else because the community cannot 
take care of their very young and very old. And the very old 
usually end up being the victims of some sort of crime against 
persons or some sort of property offense where things of value 
have been taken from them. And this is not--just trying to get 
very material with this. I mean things that were passed down 
from their father's father, things that mean so much to their 
heart.
    For example, the passage of these items and artifacts to 
their children and to their families are no longer there. And 
to me that is the measure of how effective we can be, and I 
think we can be effective given the same type of laws and the 
same type of criminal justice system Statewide, that we could 
get the same kind of action and the same type of penalties by 
Honolulu and probably keep everything on a State level.
    But because we can't, the biggest bang for the buck is to 
go the Federal way. And I think people will think twice, 
hopefully, that if you deal with large quantities and get 25, 
30 years, period, you don't get probation, you don't get 
anything else, it will make an effect on them. But there are 
other things that the addiction has not addressed, and I think 
that is an issue for money. Because we took down an 
organization, yes, it's slow in coming, but the addiction to 
money is there, too. So what happens is we have replacement 
people, people that move up in the tiers of the organization. 
So when we take an organization down, we have to take the 
entire organization. That way we get not only the people that 
run the organization but we get second, third, fourth tier 
people that move up when we make those arrests of these large 
leaders of the organization.
    Mr. Case. Thank you very much. Thank you very much.
    Mr. Souder. Thank you. I'm going to ask to insert two 
statements from Elaine Wilson, Chief of Alcohol and Drug Abuse 
Division, Hawaii Department of Health that were given to the 
Joint House Senate Committee. We met with her Friday, last 
Friday, and went through a couple of things. And the good thing 
about having a long-term problem like Hawaii has had, is you 
have more tracking than anywhere else we have in the United 
States. We're getting hit.
    And one of the things that's really interesting here, not 
saying the Big Island, per se, but in the State of Hawaii, is 
that from the tracking data she has which is not perfect 
because it's voluntary and parents have to give permission for 
the kids to give the data, in the juveniles it looks like the 
use of ice has dropped at a fairly steady rate, but adults are 
going up because the previous high school ice users are hitting 
the adult market.
    And you have a potential tipping point among youth to 
hammer at home while you're--a lot of times when you're 
fighting uphill, it takes a lot more dollars if you got a 
tipping point to close down on this prevention. But the problem 
you're going to have which has happened with marijuana 
certainly all over the United States, particularly people think 
of it as 1960's stuff, a high THC type of variation. And then 
the adults that have used marijuana and they're not willing to 
crack down on their kids, say, oh, well, this is OK, I used it 
back when I was a kid. That group of meth users who are now 
becoming adults, you don't want to counter-infiltrate the kids 
in school as they move in and get another wave of meth, even if 
you accomplish this now.
    Because you have a track record in looking at what impact 
you have is a way we can see to some degree your variables in 
other States. Because meth is the fastest growing category, 
we're seeing different parts of the United States doing that 
which is why Senator Inouye and your delegation was able to get 
an incredible amount of dollars concentrated in one place, on 
one island, in a very small State.
    So we wanted to see some of that and you have this great 
track record data to add to what we already have and it's very 
interesting. On the law enforcement side it's very unusual to 
have the cops go that way, but I can see why, because it's 
difficult for you to utilize the dollars if he's hearing, oh, 
we all hear this a lot.
    In my area, crack is a big problem. Oh, there's a crack 
house over there and the police aren't going for it. There's 
things like you have to prove it, what size bust is it, you 
have to go through the court process. Sometimes you're trying 
to track a bigger case in which stuff is coming in. But if you 
don't have basic law enforcement tools, it weakens that. If you 
continue to turn up in your survey that's one of the problems, 
if you can't get the State legislature to change the laws so 
you can get more local law enforcement, then you need to figure 
it out, because we talked to the HIDTA.
    There are ways you can get the Federal Government involved 
in the middle of that because if that undermines your 
prevention tools, if they think they find something, they work 
at it, they can't get the bad guys cracked down on, it also 
sends a bad message to the kids, swift certain punishment.
    No matter what treatment program, what prevention program 
ultimately many of them say but you could go to jail. That's 
the stick part of the carrot efforts in the Boys and Girls 
Clubs and everything else.
    I want to move to the blister packs. We very much 
appreciate your testimony, Mr. Kamita, because we're dealing 
with this legislation at the Federal level. And let me say I 
have had a drug chairman who is very concerned about the nature 
of the methamphetamine breaking down after and everything else.
    I grew up in the retail business. I'm one of you. There are 
at least five of us in Congress who aren't attorneys. Actually, 
there's more than that. There are 5 or 10 of us who are 
actually retailers, and we actually had a very small grocery 
store and not a pharmacy. And I know exactly what you're 
saying. Just driving around on the island here, you can see the 
concept, not to mention ABC stores everywhere, but the little 
grocery stores as well present a challenge.
    Do you see that if there was a size cutoff, let me deal 
with the basic thing, that could it be handled like cigarettes; 
in other words, behind the counter but not up front?
    Mr. Botti. It could, but it's going to be very inconvenient 
for the consumer, unlike tobacco products, which we definitely 
do not want the children to have. And if you look at the tax 
and the costs because in order to produce tobacco, government 
came in and tax, tax, tax, tax, we wouldn't want that to happen 
with cold medicines. You want the people to have them and you 
want people to have them at the least possible price.
    The way I'm looking at this after this hearing is the 
retailers are not the problem, but the retailers are the 
visibility. Everybody sees the retailer, but they don't see the 
drug dealer. They don't see what's coming in from behind the 
scene. So therefore, it's the retailer's responsibility to act 
and be aggressive on helping the knowledge area.
    We can do this without a law. The photo that I passed out 
was KTA Superstores. I happen to be a resident in Waikoloa 
Village now, and this is the Village Market. They have a limit 
of five packages per day. It doesn't really mean anything 
because if somebody wants it, they're going to be limited to 
one, but they're going to come in every day to get it.
    But what this does is it allows them to put up a sign that 
creates education for all consumers. They put it in a highly 
visible area. And this is based on us going to the Keith 
Kamita, School of Manufacturing Methamphetamine, because Keith 
put on a workshop for KTA managers and it was amazing the 
attitude change because they didn't know how to make it. Now 
that they know how to make it, they know what people are 
looking for and that changes.
    It's highly visible. They limit the number of quantity to 
seven of any one item on the shelf, so therefore, you don't 
have the shelf going all the way back. The problem is not the 
customer buying it, it's the stealing of it. So this is where 
they're going to get the quantity. They're going to come and 
sweep the shelf.
    So we have stuff going on-line and we just signed on to the 
Meth Watch Program, and I think we're like the sixth State to 
sign-off on it. So working with Keith, getting the education 
out, educating the retailers, having them educate the public 
through publicity of these items and then we're not going to be 
a problem.
    Now, we would be a problem if we didn't do this because as 
law enforcement dries up the hard core stuff, then they will 
start working the shelves at the store. But like with 
cigarettes, they have a bust, they stop at every store, 10 
people get off and they each buy the limit. That was happening 
with cigarettes until--I think Ed was there when they passed 
that law, that they put real stiff regulations on the 
cigarettes. That's what stopped it, and the State gave $20 
million in tax revenue. Thank you.
    Mr. Souder. Mr. Kamita, well, Oklahoma has a restriction. 
Well, one of the problems there is at a hearing in Arkansas 
where we had some testimony, I learned that, for example, to 
get around it in Oklahoma, they happen to come to my home State 
of Indiana which is 800 miles--actually, they went to Chicago, 
but the guy was operating out of Indianapolis, Indiana which is 
about 150 miles from Chicago. Chicago is about 600 to 800 
miles, actually, 800 to 1,000 from Oklahoma because Chicago had 
no limits, they hadn't had small meth labs and would just bring 
a whole car load of this stuff back to Oklahoma.
    That type of pressure is really putting pressure on the 
Federal Government right now because clearly in at least the 
mainland contiguous States, it isn't really working very well.
    And the question is, are we going to grandfather in States, 
and at what level? This is going to be a big issue, probably, 
next year as we work through this and that's why this question 
is important. I don't want to have a small business problem 
versus a big business problem, but I'm very familiar with Wal-
Mart, having been to the distribution centers, they've got the 
scanners, they know basically between 9 and 9:15 how many 
people with slightly gray hair, black, how much toothpaste of 
this kind and they can get in their computer systems. A small 
grocer would not have that ability. But I don't think it's as 
hard to do the tracking when they move store to store as more 
move to scanners.
    Could you discuss a little bit how the smaller stores move 
as compared to the bigger stores and how you see that working?
    Mr. Kamita. Well, some of our problem is not so much big 
stores like Long's Drugs or Safeway who are connected among 
themselves or if they have a pharmacy within themselves. We 
have in Hawaii what we call a pharmacy alert system where we 
can put out an alert to every pharmacy in this State as to a 
suspected person who's, what we call, smurfing pharmaceuticals 
or smurfing regulated chemicals. It's the little mom-and-pop 
stores, the ABC stores that don't have pharmacies inside where 
an individual can come in with a crew and maybe buy small 
quantities.
    Mr. Botti is correct. A lot of the time the biggest problem 
is them coming in and sweeping the shelf because maybe that 
facility had too much product on the shelf. With KTA we told 
them to limit their box count. It will save them money. It also 
limits the amount of pseudoephedrine they can get on the 
street.
    We've trained a lot of these pharmacies, a lot of these 
retailers as to what to watch for. But as you can tell Mr. 
Botti here, there are some pharmacies who give out seven 
packages, some that will only allow three packages so it's not 
a consistent message.
    We're looking at saying three packages and no more, and 
that kind of drives it home that any clerk would know three 
packages of any one item, that's it, versus having to worry 
about how many milligrams was that and calculate it up.
    We know that each blister pack can have no more than 3 
grams. That's why we set a 9 gram limit.
    Mr. Souder. Is Meth Watch voluntary right now by individual 
store and chain, or is that a Statewide effort, the Kansas 
variation.
    Mr. Botti. It's voluntary. We will be promoting it for all 
stores. And I think on what Keith is talking about if the 
legislature, say, adopted a resolution stating that they're 
asking the stores to do it, we can do that without a law. The 
problem with the law is then you get a clerk that messes up. 
And if you've been in the grocery store, you get food stamps, 
you get WIC, you get cigarettes, you get liquor, and now you've 
got pseudoephedrine.
    Mr. Souder. Fortunately, you have graduate students who are 
40 years old watching that. That was a joke, by the way, for 
the record.
    Mr. Botti. So the issue is we don't have to make criminals 
out of the customers signing in and getting proprietary 
information also. You're talking about social security number, 
driver's license number, address, phone number. If we can avoid 
that and have the visibility, go along with the high 
visibility, go in and voluntarily limit the program, limit 
what's on the shelf, come in with a reporting form that would 
go to Keith Kamita's office, that is something that would be 
much more preferable than stating that if they don't do it 
right, it's a misdemeanor, and then go to jail.
    Mr. Souder. Do you have a problem with the repeal of the 
Federal Business Act?
    Mr. Botti. I can't answer that, but I know they are working 
on a chemical that would go in there that would make it 
nonusable for making ice. I don't know how far away that is. I 
think that's something that should be looked at if they're 
going to change the blister pack which was made in order to 
help resolve this problem and keep the product on the shelf for 
those consumers that need it.
    If that's going to be a year away, then I would say no 
sense in tampering with it if the manufacturers are going to go 
ahead and do that. I would say that would be far preferable 
than changing the law.
    Mr. Souder. Yeah, I have a feeling it's 1 year away, but it 
would be preferable if we could get that in. And I would be 
interested in getting further input into the committee to see 
how you're moving on the Meth Watch, how widely it's being 
accepted, the effectiveness it's having. They're enthusiastic 
in Kansas, but they're still having more rapid growth of labs 
so Kansas is struggling with what to do right now, too.
    Congressman Jerry Moran represents that a lot of the west 
has just exploded in spite of the Meth Watch, so we need to 
continue that. Retailers often are the tax collectors for sales 
tax because we're that distribution point. And since businesses 
don't pay taxes, individuals pay taxes, so it's not like you're 
going to get it out of--your costs go up because of this. It 
doesn't mean your profits are going to go down. It means 
consumer prices are going to go up.
    At the same time we've had to do this for cigarettes 
because as a major point of distribution, and bartenders get 
hit for distributing alcohol to somebody who's drunk, but there 
is different accountability. We prefer not to do it that way. 
If we can address it in some of these other kinds of ways of 
putting things inside the blister pack, changing the blister 
pack law, trying to do Meth Watch and that type of thing.
    But it's really important for the retail industry to 
understand they need to be cooperative here because government 
has clearly shown they're not oversympathetic to the problems 
of the retailers and the challenges. People love to complain 
how come everybody is going to Wal-Mart and the big stores. 
Well, this is the type of pressure that's very difficult for 
smaller stores.
    At the same time you can't tolerate a community that's 
being overrun with meth and we have to figure out how to do 
deal with it.
    Do you have any further comments?
    Mr. Case. My question from the last panel, Keith I think 
you've answered it. Chief Mahuna, one thing from Congress.
    Mr. Mahuna. Well, the only thing, as far as our department 
is concerned, it's resources to at least start programs that 
are--when you look at prior to the ice teams or ice task force; 
2002, recovered 2.6 covered pounds versus 13.5 pound, triple 
the cases, with more people in keeping programs than 
institutions.
    And I think everybody is asking for resources, but when you 
look at an island like this that is connected by basically one 
road, we have small pockets of rural people that if they have a 
problem, they try to take care of it. And it may exacerbate the 
problem by trying to keep the person there.
    You have a police force that quite frankly is one-fifth or 
one-sixth that of Oahu. Yes, you have the density on Oahu, we 
have the size. Anything we can put a seed, whether it's through 
task force type of operations where we can accept at least a 
year or 2 years of the Federal Government's money and then, of 
course, we'll pick up as we go along. We start picking up these 
individuals.
    But right now you're looking at the war and the activation 
of the National Guard, our people are down. I think the last 
count at least 40 positions so you're looking----
    Mr. Case. Out of.
    Mr. Mahuna. Out of about 400.
    Mr. Case. Down 10 percent.
    Mr. Mahuna. It's about 10 percent and it's not counting 
people that are not there for whatever reason, long-term, 
industrial accidents, and that type of thing.
    So when you're looking at a police department trying to 
take in an effective law enforcement strategy working on an 
island this large with pockets of community that are stretched 
60, 90 miles apart, it may seem small comparison to States the 
size of Montana. But 90 miles in travel--we have areas where 
basically can't go on patrol because we don't have the 
individuals to do that. Response times are horrendous. So 
anything that could give some seed to law enforcement locally, 
I think would benefit, not only the county, the State, but I 
think it would also facilitate the Federal collaboration that 
we have.
    Mr. Case. Thank you. Mr. Kenoi.
    Mr. Kenoi. I think if we ask for anything, Congressman 
Case, it would just be continued support and cooperation. No 
one level of government, whether it's Federal, State, county, 
no one entity, no one sector within the community is going to 
make the difference or has the resources or has all the energy 
and ideas.
    But if we can continue working together and cooperating and 
moving forward and sharing information back and forth, we'll be 
happy to share any information we have for the last couple 
years, but as long as we stick together we'll be better for it 
in the community. The community will see that cooperation. It 
will give them that feeling that they're not wasting their time 
and effort in continuing to address this problem, and that's 
all.
    Mr. Case. I think we're going to be called to account for 
this island because at some point the jury is going to come in 
and it's going to be our turn to report back to the rest of the 
country how we did. I think that's an effort you've been very 
good at leading.
    And I think I do want to recognize, for the record, 
somebody who is not here physically but is simply here in 
spirit and that's Mayor Kim.
    Lieutenant Governor, and he talked for his wishlist about 
our Federal Government specifically at the top of the list and 
Mayor Kim has not just talked it, he's lived it, so he deserves 
our recognition. Thank you.
    Mr. Souder. Thank you. In North Dakota at the Canadian 
border, there in the northwest corner, there is a little 
crossing home port, and I think the county is 90 miles by 120 
miles. They have two policemen, a chief and a deputy chief.
    Now, the good thing is that's more than the number of 
trees, and it's so flat that anybody who tries to get away, you 
can see them for almost 100 miles. That's the other difference 
here in Hawaii in trying to move through all the tropicals and 
mountains.
    We appreciate your work, if you can pass that to all the 
people who work with you, too. I look forward to getting 
updated. Thank you for taking the time to be with us today. 
We'll take a brief break if the third panel could come forward.
    [Recess.]
    Mr. Souder. Our third panel is Mr. Grayson Hashida. You're 
from the Big Island Substance Abuse Council; Mr. Allen Salavea, 
Office of the Prosecuting Attorney with the Youth Builder's; 
and Dr. Jamal Wasan, the Lokahi Treatment Program.
    Dr. Wasan. Centers.
    Mr. Souder. And would you each raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that they each responded in 
the affirmative and we're going to start off with Mr. Hashida.

   STATEMENT OF GRAYSON HASHIDA, BIG ISLAND SUBSTANCE ABUSE 
                            COUNCIL

    Mr. Hashida. Thank you, Congressman Souder and Congressman 
Case, for this opportunity to share. The Big Island Substance 
Abuse Council has been responding to those who are reaching out 
for help from addiction and alcoholism for many years. This is 
evident by the 40 years of service this non-profit organization 
has been operating here on the island of Hawaii.
    Drugs are not a new phenomenon to the island, but much has 
changed in recent years. What is a phenomenon is the incredible 
impact that the drug methamphetamine known as ice has created. 
Few Big Island residents can state that they have not been 
touched in one way or another by this terrible drug. Addiction, 
violence, and crime now recognize ice as the motive or reason 
behind the action.
    At the Big Island Substance Abuse Council the impact began 
in the mid 1990's as the number of consumers presenting 
themselves with ice as their drug of choice began a steady 
increase. In the year 2000, ice became the most common 
addiction being treated at our programs. Today, the number of 
individuals in the Big Island Substance Abuse Council programs 
who will report addiction or abuse of methamphetamine is 
overwhelming. All ages, all cultures, all income levels, no one 
is ignored by this addiction.
    There are many opinions as to why this trend has occurred. 
These opinions are as diverse as the people who occupy this 
beautiful island, and the speculation will undoubtedly 
continue. The Big Island Substance Abuse Council has moved 
beyond the question why and is now looking to the solution. 
Local, State, and Federal Government departments began efforts 
to reach out to the people of Hawaii County and take a lead in 
developing the strategy and solution to the problem. 
Partnerships and collaborative efforts have begun a new trend 
related to ice that is ``Healing Our Island.''
    A combination of law enforcement, prevention, and treatment 
efforts has resulted in a comprehensive approach to turn the 
tide. Details related to the Big Island Substance Abuse 
Council's role in these efforts include the development and 
implementation of many new programs and opportunities for those 
impacted by ice addiction. The primary objective is to increase 
capacity of programs while reducing barriers to accessing 
services.
    Providing services to children and adolescents is one of 
the primary objectives. The Big Island Substance Abuse Council 
is now in all of Hawaii County's public high schools. A full-
time substance abuse counselor is available in the familiar 
environment of the school and can be accessed in confidence. 
Adolescents who present evidence of substance abuse can also be 
referred directly. The behaviors and patterns that lead to 
substance abuse are addressed where and when it is appropriate, 
not after it has progressed to addiction.
    For the adolescents who have progressed past early 
intervention, the Big Island Substance Abuse Council is a 
partner in developing and implementing a comprehensive 
Residential Substance Abuse Treatment Program. This 
experiential program is designed on the Big Island, by Big 
Island professionals, for Big Island kids.
    These adolescent programs are provided in addition to the 
outpatient treatment services established by Big Island 
Substance Abuse Council in Kona, Waimea, and Hilo many years 
ago. These programs work directly with Judiciary and family 
referrals for adolescents appropriate for an outpatient level 
of care such as The Big Island Juvenile Drug Court. Treatment 
services are provided to this target population while the Drug 
Court monitors progress and provides accountability through 
incentives and sanctions for the participant. This program has 
demonstrated excellent outcomes throughout the mainland and 
expectations are high as the Big Island Drug Court is 
implemented in Hawaii County.
    Families have experienced a significant amount of turmoil 
and damage due to ice as demonstrated through increased 
domestic violence, child abuse, and homelessness. The Big 
Island Substance Abuse Council responded to this community need 
through the development of therapeutic living programs. These 
homes accommodate target populations in a homelike setting with 
the reinforcement of full-time staffing. Programs for new 
mothers and their infant children and the home for single 
fathers and their children are examples of how the therapeutic 
living programs reach out to meet the specific needs of the 
families.
    With 24 programs throughout the island of Hawaii, the Big 
Island Substance Abuse Council continues to provide effective 
and efficient services to those in need. Regardless of age, 
cultural identity, or income level, our programs are developed 
to provide immediate access and to reduce barriers to 
appropriate treatment and prevention services.
    The Big Island Substance Abuse Council is honored to be a 
part of the solution in the efforts of Healing Our Island. The 
responses to our community needs and development of solutions 
to the ice epidemic were possible only through a collaborative 
and strategic effort of everyone involved. Support from our 
government officials such as Senator Daniel Inouye, Governor 
Linda Lingle, and County of Hawaii Mayor Harry Kim provided 
leadership and inspiration to stand firm.
    While much progress has been made, and the efforts have 
been rewarded with success, there remains tremendous needs. 
Support for the individuals, families, and communities 
throughout the island of Hawaii will be necessary as the work 
continues. Many rural areas hit hard by economic turmoil and 
the devastation of ice still have little or no services for 
their residents.
    Longer durations of treatment have been proven effective 
for methamphetamine addiction, but treatment episodes continue 
to be limited in length. Specific target populations such as 
those with co-occurring disorders struggle to find appropriate 
care.
    The island of Hawaii continues to need the support of our 
Federal agencies to maintain the course and develop all of the 
resources necessary to overcome this epidemic. Please continue 
providing the funding opportunities and support that have 
allowed the progress to occur and will continue to support the 
efforts toward Healing Our Island. Thank you.
    Mr. Souder. Thank you. Mr. Salavea.

STATEMENT OF ALLEN SALAVEA, OFFICE OF THE PROSECUTING ATTORNEY 
                    WITH THE YOUTH BUILDERS

    Mr. Salavea. Aloha mai kakou, Chairman Souder, 
Representative Case. I would like to begin by thanking you for 
this opportunity to testify on the impact of crystal 
methamphetamine or ice as it is locally known. Part of my 
testimony is to quantify the ice problem and its impact on the 
youth of Hawaii island. And the other part is to give you a 
preview of the prevention, treatment, law enforcement, and 
community mobilization initiatives that have taken place in 
response to the crisis.
    My testimony is about the hope we have in our people, as 
well as the promise we are making to future generations by 
taking action now to purge the poison of ice out of our 
communities.
    Hawaii island is in a fight for the lives and futures of 
our children. In 2002 Alcohol, Tobacco, and Other Drug survey 
for the County of Hawaii stated that 2.3 percent of eighth 
graders and 6.1 percent of seniors had tried ice at least once 
in their lives.
    The survey goes on to report that 60.9 percent of eighth 
graders felt that laws and norms in Hawaii island are favorable 
to drug use.
    Statistics on the impact of ice in other domains of a young 
person's life are also poor. According to Child Welfare 
Services, children living without the presence of either parent 
rose from 2,669 in 1997 to 3,326 in 1999. Cases of neglect have 
also doubled from 91 cases confirmed in 1995 to 203 in 1999. 
These numbers illustrate the early onset of ice use, as well as 
the disintegration of the family unit.
    In response, Hawaii County has developed a system of 
prevention programs, effective treatment options, and law 
enforcement resources to prosecute ice-related crime. Community 
based drug prevention programs is an important facet of Hawaii 
Island's strategy. The Pulama project administered by the Bay 
Clinic and funded through a grant from the Substance Abuse and 
Mental Health Services Administration extend prevention 
resources and services island-wide by collaborating with other 
non-profit and government agencies.
    In the area of treatment the role and acceptance of drug 
treatment and addiction from a public health perspective has 
gained widespread acceptance in the community. The Third 
Circuit Court of Hawaii island has initiated Drug Court based 
on national models as an alternative for convicted drug users. 
The response by the community has been very positive with 
citizen groups asking what type of supports are needed.
    Another welcome addition to the array of services available 
to you is an on-island adolescent treatment facility. County, 
State, and Federal agencies along with community-based 
organizations have developed a program grounded and tested and 
effective methods and incorporated experiential and cultural 
components.
    Law enforcement is the next critical piece in controlling 
ice and reducing the available supply. Hawaii County Police 
Department in cooperation with the Drug Enforcement Agency, the 
U.S. Attorney's Office, and the County of Hawaii Prosecutor's 
office have formed an ice task force to identify, arrest, and 
prosecute ice dealers.
    The last piece in this effort is community empowerment. 
Over the last 2 years we have seen mobilization of citizen 
groups on an unprecedented scale from neighborhood watch groups 
to coordinating island-wide anti-ice sign waving events to 
community coalitions engaging in community planning. The 
citizens of Hawaii island understand their stake in this effort 
and have risen to the challenge.
    The Federal Government's support of community-based 
prevention and treatment programs along with the continued 
presence of Federal law enforcement are an integral supports of 
Hawaii island's ice strategy. In addition, Federal assistance 
to communities and neighborhoods to complete assessments and 
action plans help to empower citizens.
    In closing, the ice epidemic has caused a wide array of 
social problems for children and families of Hawaii island. The 
aforementioned statistics pull at our sense of responsibility 
and motivate us to act. I have given you an abbreviated glimpse 
of the four aspects of Hawaii County's response to the ice 
problem to illustrate the cohesiveness of our community. We 
hope for continued support from the Federal Government to purge 
our island paradise of ice.
    [The prepared statement of Mr. Salavea follows:]

    [GRAPHIC] [TIFF OMITTED] T8604.041
    
    [GRAPHIC] [TIFF OMITTED] T8604.042
    
    [GRAPHIC] [TIFF OMITTED] T8604.043
    
    [GRAPHIC] [TIFF OMITTED] T8604.044
    
    Mr. Souder. Thank you.
    Dr. Wasan.

       STATEMENT OF JAMAL WASAN, LOKAHI TREATMENT PROGRAM

    Dr. Wasan. A very famous philosopher once said: ``Once you 
label me, you negate me.'' And I think a lot of it comes with 
dealing with rehabilitation for those who are suffering from 
ice. I think at times we forget where they come from and who 
they really are.
    I am, personally, myself, in recovery, a recovering addict. 
I was wounded twice in Vietnam, was hospitalized, ended up 
becoming addicted to Demerol and when I got out of the 
hospital, stayed on Darvocet and used marijuana for quite a 
long time. I read a book back in 1970 called Man Searches for 
Meaning by a person named Victor Franco. In that book it talked 
about having had a reason, a why to change one's life. And once 
you have that, you'll find how.
    I came to this island in 1993 after successfully completing 
my own recovery and going back into the military where I 
retired as colonel for the United States Air Force. I came to 
this island and I began to work for a place called BISAC, Big 
Island Substance Abuse Council, and they were dealing at that 
time--the big issue was not methamphetamine. It was crack 
cocaine. This was 1993.
    And at that time we were told this drug is the most 
intensive, most addictive drug we've ever run across. Now, 
unfortunately, we're involved with methamphetamine. I'm here to 
tell you when methamphetamine goes, there will be another drug 
that will come along because that's how it works. The question 
was asked before about cannabis or marijuana, THC, marijuana is 
a multiphasic drug which is why you will find that people who 
use methamphetamines will also use THC because it takes of edge 
off of the effect of ice itself.
    It also helps to stimulate their appetite which is 
something that--in the 1980's and 1990's we had the diet pill 
which were methamphetamine based which were used to prevent or 
block appetites. So therefore, THC helps those who are involved 
with methamphetamines to get an appetite.
    I think another issue I really want to address and I put it 
in here is that having lived on this island in 1993 and 
understanding the population and working with some very, I 
should say, renowned people who have been working very hard to 
deal with this problem, talking about Kanaka Maoles and others, 
churches, we need to really--the question was asked if I could 
ask Congress what they could do that could help; I think 
managed care needs a push in the butt.
    If there's two-in-a-lifetime treatment for substance abuse, 
is there something wrong with that? If I have cancer and I get 
cured from cancer, if I get it again, I'm going to be treated. 
If I go in remission, and I get it again, I'll be treated.
    We talk about methamphetamines or addiction as being 
something that is a disease and it is. It's biologically based. 
It does have signs and symptoms and it does have predictable 
outcomes, and we know that is the definition of a disease. Yet, 
when it comes down to treating our addiction process, we often 
forget that and not treat it the same way it should be.
    There are rehabilitation programs. I personally believe 
that this drug did not come about because it just happened. A 
vacuum was created on these islands. There was at one time a 
very dynamic culture here that involved the sugar plantation, 
pineapple production on other islands. People had a sense and 
source of identity just like Victor Franco talks about his in 
book. They knew who they were. The plantation who carried so 
many things, medical, churches, schools, recreational. A lot of 
things happened.
    When that began to demise--and by the way, pakalolo was 
here for a long time or marijuana was here a long time and was 
taken as a nonabusive drug. People just used it. It, actually, 
was creating an island of addicts. I mean it is a drug. If you 
take someone off from marijuana, they will go through 
withdrawal symptoms. It was already there.
    But you had this plantation environment which was 
containing families. Families had a place to go to church, they 
had community projects they could participate in. Then hotels 
came and thus we have the tourist industry. That caused a 
vacuum because that is not the dominant culture for these 
islands. We're agriculture.
    So all of a sudden you're working down in tourism, you're 
working with the high end, but you're given minimum wage 
salaries. That required people had to work double wage shifts, 
double jobs, longer hours. Guess what, methamphetamine is a 
methamphetamine, it will allow me to work 12 hours, 24 hours, 
36 hours, it will keep me up.
    It was a natural consequence that occurred and we take it 
away and create a vacuum. You take away the marijuana which was 
done under new harvest which was a major drug and you do this 
for the hotels, you got a problem. Then we go around and we try 
to say people are not going in for treatment or they need 
treatment and we place the facilities on this island where they 
can't even get treatment. There is no transportation on this 
island. Something needs to be done about that.
    Voc rehab is a significant part of treatment. We talked 
about having a reason for recovery and that is the 
fundamentally why. The how has to include voc rehabilitation. 
When I finish treatment, what am I supposed to do then? Or when 
I get out of residential--residential doesn't work. The stats 
show that residential and outpatient programs are about the 
same, unless you add something different.
    And that's what Billy Kenoi is trying to do here. You have 
to add another piece that goes back to identity and also 
establish some type of after program where the child is then 
able to then step back in the community and find that he's not 
only accepted in the community, but he has a place. And that 
often comes from jobs, my self-esteem, my self-identity.
    There's a lot that needs to be done. I think Mayor Harry 
Kim has done tremendously by stepping up to the plate, talking 
to Senator Daniel Inouye to bring down here, bring you all down 
here and bring the money in. But as we very well know, you 
can't just throw money at something and expect that to cure it.
    I mean I'm a Vietnam veteran. They threw a bunch of money 
in Vietnam and it didn't do anything, right. It didn't cure 
anything. You can't do that with this problem either.
    This is a war. BISAC, Kevin Kunz is not here, but there are 
different services and we're joining together around this 
island to try and do what we can to stop it. This is a simple 
old soldier, but I know the enemy is in front of me. I know how 
to deal with it. The enemy in front of us right now is 
methamphetamine. We know how to deal with it.
    The county needs to be given more direct funding to be able 
to do that. I'm not a big State supporter when it comes to 
that. I believe that at times you need to go to the people who 
know what the problem is and how to deal with it, and that's 
the people we elect in our county and that's our mayor and 
that's our council. They need to be given more grants and aid. 
They're the ones who call us together. They're they ones that 
go around the island, Billy Kenoi, Mayor Kim, go to high 
schools, go to the churches and talk. That's where the funding 
needs to be hitting more and more of and less to the State 
where it gets tied up.
    If you put it like an old grunt that I was in Vietnam, I 
know what I'm dealing with and give us the resources, we'll do 
something about it. And I hope that my testimony will prompt 
you all to do something about managed care and get them to stop 
playing these silly games and provide treatment for people and 
also provide more funding directly to the community which is to 
the county. Thank you.
    [The prepared statement of Dr. Wasan follows:]

    [GRAPHIC] [TIFF OMITTED] T8604.045
    
    [GRAPHIC] [TIFF OMITTED] T8604.046
    
    [GRAPHIC] [TIFF OMITTED] T8604.047
    
    [GRAPHIC] [TIFF OMITTED] T8604.048
    
    [GRAPHIC] [TIFF OMITTED] T8604.049
    
    [GRAPHIC] [TIFF OMITTED] T8604.050
    
    Mr. Souder. Thank you for your testimony. Let me ask Dr. 
Wasan, but the others as well, you're not arguing that drug 
abuse is predominantly concentrated among the poor.
    Dr. Wasan. No, I'm not. If you look at Beverly Hills and 
L.A., cocaine was the drug of choice. Freud created the cocaine 
epidemic in Europe. No, I'm not saying that. What I'm trying to 
say is that when you take away something that is very 
meaningful to whatever people, that creates a vacuum. Nature 
abhors a vacuum. Something else is going to rush in and take 
its place.
    In this case what has happened is we've had a whole economy 
that came in place, that economy also wanted to have results, 
profit. In order to do that, at times I have to make my people 
work extra hard, double shifts. And when I do that and they're 
driving halfway across this island because there is no 
transportation system, people offer me something. I went to 
college, what did we use, stay awake to study longer, caffeine.
    Mr. Souder. I understand that point, but what my question 
is that--this is a huge debate. I can understand that part of 
the economy, but are you saying that the middle class doesn't 
abuse meth here and the upper class doesn't abuse meth here, 
it's only in that group that's highly stressed.
    Dr. Wasan. Well, if you look at who's coming into 
treatment, that's what you're seeing.
    Mr. Souder. Well, that's what I want to know because it's 
not true in other parts of the country.
    Dr. Wasan. If you look at who's coming into treatment on 
this island, you're going to find those that are underserved 
and under privileged. That's who you find coming into 
treatment. Now, I do know----
    Mr. Souder. Are you talking about government funded-based 
treatment or private facilities? Do the wealthier groups send 
their family members who are having treatment in the private 
facilities that may or may not be here or be in Honolulu?
    Dr. Wasan. Right. I do know people who have sent their 
family members back to facilities on the mainland, in 
California for $35,000 a month so yeah.
    Mr. Souder. In the schools where you could do the tracking 
of this, do you find that kids from middle and upper income 
families have less of a meth problem than those from lower 
income families?
    Dr. Wasan. I do know that the kids that I'm aware of who go 
to HPA or Parker School, $12,000 a year to go to HPA, there is 
a marijuana problem and that's there. There is a problem there. 
But as far as methamphetamine, I have not seen a rush on that 
among the adolescent. I've seen marijuana. But remember what I 
just said, though, once you get addicted to marijuana, you've 
already created an addict. It's simple, you give me another 
drug and I'll try it.
    Mr. Souder. Any of the others jump in on any of these 
questions. Let me followup with that. One of the big debates 
we're having is how to concentrate on drugs. There is no 
question that marijuana is overwhelmingly the No. 1 drug of 
choice. 60 percent of people in treatment in the United States 
are with marijuana. As THC goes up, it's becoming a greater 
problem, greater violence problem, greater problem on the road.
    One of the arguments is, only 8 percent of the Nation has a 
meth problem. It's certainly higher here. But one of the 
arguments we've heard in the hearings is that meth grips you 
differently. In other words, when you hit ice, it's like all 
you think about is your next hit, it's tough to work, it's 
tough to do other things, and it's a little like ecstasy in the 
sense that addiction may be even greater.
    Is that true? Do you agree with that?
    Dr. Wasan. I would agree that the addiction to 
methamphetamine like crack cocaine happens more rapidly. It's 
because of the effect that your memory is pushing out the 
normetanephrine which allows you to be stronger, more alert. 
It's like taking a 75 watt light bulb and making it a 150 watt 
light bulb so you can see everything and you can do more. And 
that's a very strong draw, especially if I'm working in a 
position that I need to be hyperalert. It's a very strong draw.
    Mr. Souder. We haven't heard this. In fact, we've heard the 
reverse, that ice doesn't enable you to work. It may be like No 
Doze, super caffeine keeping you awake at a certain level, but 
at what point does it debilitate you? In other words, you're 
starting to make errors at work that are substantial. Pretty 
soon the impact on your brain cells is like marijuana because 
it has a lazy effect in many cases.
    Dr. Wasan. Right, right, the motivational reference. What 
you're saying is true, but not initially. The more you use 
methamphetamine, it creates a neurotoxin that causes brain 
damage, memory loss, and paranoia, amphetamine psychosis kind 
of thing. They repetitive in what they're doing so that's 
nonproductive, but initially, no, like any other amphetamine, 
it's going to boost me and I think I can do more.
    Mr. Souder. It's like the rock stars taking a hit before 
the concert.
    Dr. Wasan. Right, right. It's a long-term what you're 
talking about when reverse effect occurs, because remember the 
body can only sustain this for so long. This endorphin which is 
blocked from the brain and keeps me agitated and moving around 
and moving and moving. The body can only take so much of that 
and begins to shut down; my ability to concentrate.
    Mr. Souder. And then in the treatment, how do you treat a 
drug like ice? We've heard that it's much harder in treatment 
organizations to get a treatment for ice like crack, as opposed 
to many of the other drugs. Your points about fallback is true 
and depends whether the family is abusing and whether they have 
a job, I understand that portion, but the actual physical 
addiction, is it substantially harder to treat than other 
drugs.
    Dr. Wasan. It takes a longer period of time, I would say, 
to treat and that's because of the neurological deficits that 
also occur, whereas in marijuana it tends to be faster; crack 
cocaine--you know, cocaine is not a neurotoxin. So yeah, you 
can be able to--your brain and body compensates quicker than it 
would from a methamphetamine. Treatment does need to be longer.
    I think the thing we have to understand is that because 
addiction is a process, it's going to go through 
precontemplation, I don't got a problem; contemplation, I think 
maybe I need to work on this; and action, I really am working 
on it and I'm in treatment. The final stage is maintenance, and 
that's going to be for a lifetime.
    So if the drug is still out there, I need to have a strong 
barrier between me and that drug. You know what, I can say the 
same thing about marijuana and crack cocaine, so the treatment 
may be longer. And I also need to have an integrated treatment 
approach. I need to have medical, I need to have psychiatric 
when I'm treating methamphetamines? Not necessarily so if I'm 
treating marijuana or alcoholism, but if I'm treating 
methamphetamines, yes, I do which is why the expense for 
treating methamphetamine may be more because I need a more 
stronger, specialized integrative staff than to treat, say, 
alcohol, for example.
    Mr. Souder. Now, in California which is the only other 
place I've heard this particular thing, meth addicts are the 
one group that they don't want their children. If you take them 
into child custody, often they don't want them back 
particularly if they're a cooker. And I would be interested in 
the prosecutor's office's comments about that, too.
    That suggests there is something also very different going 
on in this drug than other drugs, if they don't have the normal 
family attachment for their kids.
    Dr. Wasan. Again, if you're talking about the disease and 
biologically based organism neurotoxin, it does cause deficits 
within the brain. In other words, tissue begins to die. 
Methamphetamine, the chemical that's produced in it, causes a 
neurotoxin effect that does tend to cause organic damage to the 
brain.
    This is why you have certain behavior changes because of 
the loss of impulse control, damage to the neocortex, damage to 
the temporal lobe. It does deduce that. The only way you're 
going to find that is if you have them in treatment for a 
longer period of time and you have these specialists looking at 
that. Then you can design a real legitimate program around that 
to help them overcome these deficits--or I should say not 
overcome them necessarily, but to compensate for these 
deficits.
    And this is one of the things that has not been happening, 
and although a number of us have said this for a period of 
time, it's only just now that I found the first opportunity to 
be able to sit and talk with you. And if Dr. Kevin Kunz, he's 
is a physician, were here, he would share some of the things I 
talked about because it is a neurologically based problem, but 
it's being addressed more as a behavioral problem than it is 
being addressed as an organic problem or physical problem 
because it is.
    Mr. Souder. Congressman Case.
    Mr. Case. Let me back up and then we'll come back to 
rehabilitation and talk about prevention.
    We've got law enforcement, we've heard about that. We're 
talking about rehabilitation, but let me focus on prevention 
just for a second with you, Mr. Salavea, because I think your 
testimony goes to prevention.
    There was a comment by the Chair earlier that the national 
stats show that ice use may be declining. I think this is a 
fair statement of what you said, ice use may be declining among 
youth, but we're seeing it accelerated among young adults and 
that's simply a [inaudible] going through.
    Mr. Souder. In Hawaii.
    Mr. Case. In Hawaii, which implies that since we're not 
having the same type of demographics going through, that we're 
doing something right. What is it? First of all, are we doing 
something right and what is it we're doing right in terms of 
prevention? What is keeping more kids--if that's true, what's 
keeping more kids off ice and stable through high school.
    Mr. Salavea. That's an interesting question and we notice 
through analyzing the statistics from the surveys, that was a 
trend that, like you mentioned, Chairman, a tipping point for 
us to take advantage of. And as far as what--if we are doing 
things right, I think we are.
    My testimony really went to the heart or speaking of the 
cohesiveness of the community, and we have these terrific 
leaders and motivators like Billy Kenoi to get the community 
work done and to buy into the problem of ice and 
methamphetamine abuse here. And from that the community has 
taken the--taken the initiative and in some instances formed 
their own community coalitions.
    The North Hawaii Drug-Free Coalition is a terrific example 
of how citizen empowerment really--investment in that movement 
really has a multiplier effect. You bring in the businesses, 
you bring in the volunteer help, you bring in the moms, the 
dads, the civic organizations located in this particular area. 
And you're able to take advantage of that human resource and 
use your dollars for direct--to get directly out to the 
community, as opposed to paying a full-time position with 
benefits, so I think that's one huge component.
    The second thing is probably the--because we come from an 
island that may not have the same amount of resources as, say, 
like Honolulu, we've learned over the past 20, 25, 30 years to 
do more with less and that just has been a tradition.
    When I got into the prosecutor's office and we started 
doing community assessments and surveys to find out what some 
of the issues were, the other agencies came to the table 
readily and they put out their resources for everyone to use 
and to see how we can work together to more effectively do our 
jobs and that continues to today.
    So you don't have this rift between or competition between 
agencies and that's what we really like to work on or utilize 
when you bring together projects. It's not about who's going to 
get the big piece of the pie, rather it's who can provide the 
best services to the most amount of people for the lowest cost 
and effectively do that as a team.
    Mr. Case. Do you do it mostly through the schools? Is that 
the most effective way to get to the kids?
    Mr. Salavea. The school is definitely a rally point. We're 
fortunate to have a lot of DOE personnel. Their primary 
objective is with the education of a child, but it's being 
hindered by drug use and in this case methamphetamine. So they 
understand and they come to the table with the hope that if we 
help them get kids off of drugs, then they can do their jobs 
better of educating the kids, so definitely the DOE is a big 
partner.
    Mr. Case. I'm focusing more on kids not getting on drugs to 
start with. We're trying to take care of what's working. You 
can track the smoking thing, for example. In Australia they 
show the brain autopsy to--and we're getting close to that 
here. I know that something like that is happening in the 
schools.
    Is that where that preventive education effort is going? I 
guess I'm trying to get a sense of what works in preventive 
education. What exactly works, or is there just no standard way 
of doing it? Do you do it differently with a community that has 
more churches, you go through the churches versus some others?
    Dr. Wasan. There was a book that I'm trying to think of the 
author's name. I think it was Dale Matthews, and they did a 
study with the public health system down in Texas. And they 
found that prevention and preventing relapse, they're looking 
at a real spiritual basis. The churches--as a matter of fact, I 
think one study was done in 1985 or 1992 or 1996 and it said 
that the prevention for youth turning to drugs or alcohol was 
the father's spiritual belief, his value system.
    The public health did a study with heroin addicts, for 
example, and they found those that got involved with spiritual-
based or church-based beliefs after 1 year were in a 90 percent 
not relapse, but 90 percent recovery.
    So we need to be able to support those people that are 
involved with the churches and faith-based group organizations. 
We need to be able to provide more support for prevention for 
those that are involved in culturally based programs, and that 
will serve prevention.
    Remember, like I said before, if I have an identity of who 
I am, I'm less likely to go off that side because it brings 
shame on me and my ancestors.
    I need to know that.
    Mr. Case. Comment. I would love to see an empirical study 
drug and ice abuse among children in Native Hawaiians because 
I'll bet you anything that you would see some amazing things 
going on there which is exactly the point you're making.
    Mr. Salavea. In regards to your question to the DOE, we do 
things here in each individual community differently based on 
what resources are available. Sometimes the staff or 
logistically it may not be feasible to do the education and 
prevention in the schools, and therefore, be partnered with a 
community base. But the key is identifying what is the strength 
and then working off of that.
    And the model is, what we try to do, is once you come up 
with a successful method and this is the area of community 
planning, you use that method or you match up a community with 
similar demographics, similar resources to a previous model 
that's worked. And then that way you can show them that, OK, 
with what you have, you're able to take on a prevention program 
and develop an action plan based on your strengths, not looking 
at your weaknesses but understanding your strengths and then 
working from there.
    The big part that we've begun to do better I think in 
Hawaii County, and this goes back to your first question, 
Representative, is we're getting outreach. We're publicizing 
what we're doing and making sure that the community at the 
lowest levels, local neighborhoods, understand that, one, there 
is an ice problem; and two, from the clinical standpoint it's 
not all about persons having a personal weakness for a 
particular substance, it's a disease; and three, there are 
things you can do as a citizen and get involved.
    And it's replicating that message over and over and telling 
people to get involved because look at what north Hawaii did, 
look at what Ka'u is doing, look at what Kohala is doing. It's 
the representation of the message over and over to the other 
communities that may not be as geared up or effective, that's 
helping a lot.
    Mr. Case. Mr. Hashida, let me ask you about rehabilitation. 
Does rehabilitation of crystal methamphetamine, specifically 
ice, does it have to be so expensive to be effective? Is there 
any proven, medically proven, because I do agree with you it's 
a medical condition--does it have to cost $325 a day?
    Mr. Hashida. That's a good question. Our agency every year 
collects outcome data on all of our programs, and we can kind 
of take a look at everything. We are finding that there are 
extensive services that need to be put in place for treatment--
what we call, treatment outcomes and goals to be met, and 
unfortunately, it does cost money.
    Like, for example, one of the programs that we can do, a 
client can come in and we have a program therapeutic living 
services, a house, 24/7 type of coverage, and then 30 days they 
go into what's called outpatient treatment which again costs 
more money.
    The other side of that is they also attend what's called 
silver support networks which are 12-step groups which are also 
very effective.
    Mr. Case. What's the success rate of one of those programs? 
What is the fall off the wagon, if that's the right way to put 
it? Are there any stats on how many people are addicted, 
medically addicted to ice and go through a recognized, 
supervised treatment program and stay off.
    Mr. Hashida. I can take a look and send some information 
over to your office about exact stats with specific programs.
    Mr. Case. Just off the top of your head.
    Mr. Hashida. 30, 40 percent, but that sounds really low. 
But in actuality, when you compare that to other programs, 
that's pretty decent.
    Mr. Case. That puts a little bit more emphasis on 
prevention.
    Mr. Hashida. Yeah, yeah. I think at the schools and also in 
the community levels the programs are making an impact. They're 
creating a sense of urgency so a school teacher or counselor or 
somebody can identify a potential kid, if there is an ice 
problem.
    There is an urgency there. We get calls, things roll, 
things happen to prevent that kid from going into further 
trouble with ice. Even when you talk to the kids, they 
understand that it's a dangerous drug. They don't minimize it, 
it's just like cigarettes or pakalolo. They know it's a lot 
more serious. Some of the programs they've talked about 
definitely has made an impact on them, but prevention is the 
way.
    Mr. Case. Thank you.
    Mr. Souder. It's interesting because one of the things I've 
heard was that part of the reason behind the drop here is that 
all of a sudden every elected official and television station 
and the news stories, say that meth is terrible. The 
concentrated effort of the community over time seems to have 
had an impact, at least in the youth thing which is interesting 
because one of the greatest myths in America is ``Just Say No'' 
didn't work. In fact, ``Just Say No'' dropped drug use in the 
United States 8 straight years.
    It wasn't ``Just Say No,'' that was the starter. Say no, 
and then you do all the other stuff to help the addicts, to 
reinforce that through prevention, you still arrest people on 
the roads. Nobody ever did ``Just Say No,'' but if you don't 
start with ``Just Say No'' it is very difficult to move 
through. And you made an interesting case of that because 
you've had bipartisan, cross party, cross--when Congressman 
Case first came to the committee, I know that we really weren't 
focused on the meth problems and drug problems in Hawaii.
    Senators have a lot easier chance to write things into a 
bill than we do on the House side. We start low in the budget 
and then they get to add the add-ons and then we scramble to 
get part of the credit is about the way the system works. But 
often we'll lay the groundwork for which they can then put the 
things in and there was a bipartisan effort coming in on meth.
    The same thing is happening with tobacco, that when we grab 
it as a community, we can start to get that. My understanding 
that I hadn't heard in other places, and this is an interesting 
cultural question and I don't know where the subgroup would be 
and where in the community, that some people here in Hawaii 
have seen family clusters doing drugs together. And we see that 
in a few parts of the United States with a couple types of 
drugs, but could you describe that here and do you see that in 
meth?
    Mr. Salavea. Are you referring to--when you say family, is 
that----
    Mr. Souder. Mother and dad and the kids at the same time.
    Mr. Salavea. If you talk about marijuana or pakalolo, it's 
almost at the level of--its use is almost as casual as drinking 
alcohol. When you go to family parties, that's one of the--used 
to be one of the old initiations into adulthood for a young 
boy, when you get to sit down and drink beer with your dad. 
When you did that, you were a man.
    Marijuana in my opinion, and from what I know of from my 
personal experience, my family, and my friends, approaches that 
level of use or has that type of community norm associated with 
it. When you're able to smoke in front of your parents, smoke 
marijuana in front of your parents, you've crossed into 
adulthood and now it's OK for you.
    One characteristic of ice that makes it extremely 
attractive to local people is the fact that it's smokeable. If 
you asked--if meth users or addicts had to inject meth, I don't 
think we would have the same problem here today. It's a 
cultural thing that, yeah, it's being done in family groups, in 
pods. I know a lot of parties where you go to a party and you 
can pick out every relative who smokes pakalolo. And as soon as 
they disappear, you go out the door with them because they're 
going to light up.
    Mr. Souder. Give me the challenge for treatment here 
because what we hear in treatment hearings is--the common thing 
is enablers. In other words, alcohol you hear it, wife doesn't 
want to crack down, doesn't want to get in an argument, kind of 
lets it go, kids tend to get out of the way. We're not talking 
enablers here. How in the world do you treat somebody if they 
go right back into the family and everybody is smoking pot and 
maybe doing meth, too?
    Do you have a family drug treatment? In other words, if 
somebody checks themself into drug treatment, if that's the 
type of culture you're dealing with, taking individuals is 
almost irrelevant, and you don't bring the family in for 1 day 
to say, hey, or 3 days, this guy is going to be coming out of 
drug treatment, how are you going to help him. Well, one thing 
would be go into drug treatment yourself.
    Are there programs that are oriented if you get somebody 
like--somebody comes in at 18 and says my parents are doing the 
drug as well, my brothers and sisters, do you approach the 
whole family, try to get them in together? How do you deal with 
this? This is a little bit different.
    Dr. Wasan. You hit a very natural track there, too. They 
will not do ice with their kids. You'll hear them say I'd 
rather have my child do marijuana or pakalolo at home, or 
smoking cigarettes, at least I know what he's doing, so you'll 
see that happening.
    But I have yet to meet anybody in my treatment program that 
will sit and smoke ice with their children. They'll say the 
opposite. I'll smoke in the bathroom, I'll smoke it outside 
because they do understand there is a difference here.
    Now, the other piece, though, and because this is the hard 
concept to sell on the islands because it's transgenerational. 
Marijuana has been considered to be OK because it doesn't lead 
to violent crimes.
    It's antimotivational. Who wants to fight me doped up on 
marijuana, right, so it's more of a hard sell.
    You have to bring families into treatment with, as we call 
it in mental health, the identified patient. It may be the 
child, it may be the parent, you have to bring a family in. 
Most treatment when you look at the research will say that, 
that you have to have the family component added as part of 
treatment.
    Now, has that happened a lot, probably not, but it should. 
And why hasn't it happened a lot. Well, managed care isn't 
going to pay for that straight out. Managed care will only pay 
for the identified patient for treatment. It will not pay for 
the family treatment like that, they don't believe in it, 
right. So that's a problem.
    So in order to be able to do that, you have to get grants 
or funding that goes specifically for groups like Parenting Net 
Inc. or people who are certified in parenting and even getting 
involved in getting faith based who does family treatment a 
lot.
    It needs to be targeted that way.
    Right now it is not targeted that way. The purpose of 
bringing an adolescent residential program on this island, and 
Billy is definitely correct with that, 70 percent, I heard the 
number as high as 70 percent, of the people involved in 
adolescent treatment off island were from this island. To bring 
the treatment on this island, allows the families to be 
involved in treatment and it should be a required component. I 
imagine it actually is. I can't say for sure or not. But that 
is a natural draw, you have to have the family.
    Now, what that will do at least will make it an awareness. 
I don't think most people who smoke marijuana on this island 
really think it's a drug.
    They haven't had to sit down and really go through the 
process of addiction. They could if they were put into a 
treatment.
    Mr. Souder. Is there a way in any of your data to check 
when a person comes out? 30 to 40 percent is probably a 1-year 
tracking not a multiyear tracking and also if you can get any 
data in from any of your organizations to see if any of them 
kept multiyear tracking. It might be actually a little bit 
easier for multiyear here because you're not as mobile. In the 
end I'm going to go to Ohio and Michigan and Illinois, and then 
the differences between, say, one relapse, three lapses, and 
serious falling back to being an addict, because there are 
substantial differences.
    But in that 30 to 40 percent, what are the differences if 
no one else in the family is a drug abuser? In other words, if 
you kick somebody out--somebody graduates from the drug 
treatment, they're clean, if they're family is using marijuana 
or ice, I would assume their chances of fallback are much 
greater than if they're the loan user in that family. And if 
so, that's the type of statistic that would be helpful in 
making the argument that the problem is beyond the individual.
    Otherwise, we're just spending money. Nobody has ever 
worked this issue. You can go anywhere and guys will tell you 
I've been to seven drug treatment programs, I've been to 10 
drug treatment programs. I know how to hustle, I know how to 
pass the drug test. I know what they want to hear, I can say 
the words they want to say, once they learn to beat the system.
    And the question is this: How do we figure out some of 
the--and one of them is if you put them back in the conditions 
that were there beforehand, and if the family is the condition, 
this is huge because if it's the job, you can move them here, 
you got a locational thing that's more problematic than other 
areas. But, if it's the family, then you're in the position of 
the only way to rehab a drug addict is get them away from the 
family which is a pretty nasty concept.
    Mr. Salavea. I just wanted to mention we do see that, 
family dynamic going on, and some of the families are huge. 
There are huge families. Every corner you turn there are family 
members.
    Mr. Souder. Extended family problems, we should make sure 
we note that in the record because that will be different than 
any other--when you say that, elaborate on that a little bit.
    Mr. Salavea. Yeah, the family extensions can go quite a bit 
in terms of a small town. That's another factor to think about. 
The way we approach this is I'll tell a client, for example, 
you've done the treatment successfully, you want to continue to 
be successful, some of your family members--you just can't go 
back and live in that same house. You can still have family 
members and they may or may not seek treatment. They may not be 
in recovery, but you're not going to be living in that kind of 
environment and that's how we try to deal with them.
    Just to add a little bit more answer to that question, I 
was discussing with one of the members in the audience 
previously, when you're part of the scene and you're in it, it 
seems like everyone is doing it. And when you get out of it, it 
seems like it's a minority, but you're on the other side of the 
glass, so to speak, and you don't really see the depth or the 
extent of it, the true extent.
    And in getting back to your question about how do you deal 
with someone who in the family environment is the enabler or 
that trigger that will make that person relapse, another part 
of the adolescent treatment is the cultural component where 
many of these youth or teenagers have grown up in a cultural 
family of drug abuse, alcohol abuse, addiction where it's 
become--not their second nature, it's what life is and that's 
all they know.
    An important aspect is to make them aware that you are not 
bound by what your family has exposed you to, and therefore, 
you can set your own sights on where you want to go and use 
cultural activities, cultural education, history to show that 
person that you don't come from a long line of addicts and 
that's your destiny, that's the only way you're going to go. 
That addiction began one, maybe two generations ago and it's 
not that deep and it's not farfetched for you as an individual 
to make a total, clean break from it.
    And in that process, that education process, the person 
begins to understand, you empower that person and they believe 
that I am the master of my own destiny and even though my 
family may choose to do that, I choose not to. And therefore, 
like counselors from BISAC, you don't have to spend as much 
time monitoring the individual because that person will for 
themselves be making the decision. No, that's not my choice, I 
choose to live a different lifestyle.
    Dr. Wasan. I want to add one more piece. Just so you know, 
the communities on this island were stepping forth long before 
the funds were given. The Lokahi Treatment Center began in the 
back room of a church with a counsel one, by myself, but they 
gave me a building to start it with, they gave me support. I 
received no funding at that point from the State or from the 
feds or anyone else. I did receive some funding from the Dr. 
Earl Bakken Foundation to help me.
    We were then given a free location in Kohala because the 
community said we need help up here. We were then given a 
location in Hilo for 3 months free to come in. The community is 
stepping forward. And they couldn't give any money, but what 
they could give was I'll give you space, I'll give you the 
time. The people who were coming for treatment were not even 
able to pay for the treatment, they had yet not been on QUEST 
or been able to afford the treatment so we treated them for 
free based on what we were getting from Dr. Earl Bakken. And 
then the community supplied other means of support.
    So this project or this program or this treatment was going 
on before the Feds and the State stepped in and helped, and 
will continue. What you all have done is provided us a way to 
up the ante a little bit. Now we have agencies that are 
accredited. We're an integrated--we're the only integrated 
programs on these islands that's accredited. We have Dr. Kevin 
Kunz who's accredited. You've allowed us now to step up to the 
bar, raise the level, bring in the people to work on this 
problem and that has helped a large, large amount.
    I do see the numbers dropping of those in my program from 
relapsing and coming back. Something is happening. I see the 
faith-based communities stepping in and filling the gaps. So I 
truly thank you for the support you have given us to allow us 
to raise the bar on treatment and that's what we're trying to 
do.
    You're absolutely correct, prevention is the key and 
getting--as I said before, getting families involved, 
supporting the churches more, supporting the cultural programs 
more. That's the true preventive key. Once I know who I am, I 
have a less chance of going that direction. I don't want to 
bring shame.
    I'll say it over and over again, this culture is based on 
that. You do not want to bring shame on our ancestors, those 
who are of a Polynesian or Japanese or Asian ancestry. You do 
not want to do that. And one of the ways you're helping them 
not to do that is allowing the cultural and faith-based 
programs to be strengthened to give them a place to go and 
learn who they are.
    Mr. Case. I don't have any more questions, other than to 
say thank you and to the people who came before you and to the 
audience who has stayed with us throughout. Trying to be an 
observer in the hearing, I think you've seen the best of 
Congress, a good person who cares, down here trying to make a 
difference, so we want to thank him very much, Chairman Souder, 
for joining us this afternoon.
    We have a tremendous need across our country. We have 
tremendous resources and the resources are stretched. There are 
many things Congress needs to attend to. This is one of the 
opportunities, to come down in our community and have the 
community so eloquently state to Congress for the record that 
is being taken what we are, what we need, and what we want, and 
what we are doing is truly a great opportunity.
    I think we have seen here today the similarities that we 
share with many parts of our country in terms of the drug war 
such as this epidemic of ice. We've also seen the differences 
that we have here. Differences in not only needs and challenges 
but also in opportunities and solutions. I think, in fact, we 
have been given a rare opportunity to provide really an 
[inaudible] for our country, an opportunity that no one in the 
entire country has had.
    Unfortunately, we got that opportunity because we have a 
problem, but we also have the opportunity to demonstrate a 
solution that's going to work for our entire country. And I 
think we should all feel a sense of responsibility especially 
for the people that are responsible--I certainly feel a 
responsibility to assist you, the people that are on the 
ground, actually dealing with this on an every day basis and 
whether you're dealing with law enforcement and prevention, or 
whether you're dealing with it with rehabilitation. That's a 
very tough job you're doing. We appreciate very much what 
you're doing.
    I guess I just want to close by telling you a little bit of 
a story. This is another one of those police station stories. I 
get a lot of information from communities from dropping into 
the local police stations and finding the lowest ranking police 
officer and asking him or her what's happened. In the hierarchy 
sometimes you'll lose something in the translation.
    This was in Hana and it was at the very beginning of my 
term and I wandered into that community. Now, many of us would 
not think especially, if we're in Oahu central, that Hana would 
have an ice problem. It does have an ice problem. A community 
incredibly deep-knitted culturally, remote, you would think 
that perhaps there wouldn't be as much of a challenge there, 
but it is.
    And I walked in and I asked the police officer what is your 
No. 1 challenge in Hana, and he said ``ice.'' I said, ``What's 
happening?'' He said, ``Well, we don't have enough of any of 
the three things, prevention, rehabilitation, or law 
enforcement.'' The community is like many of this island, 
remote, far away, supply land, if you put it that way, are 
stretched. The assets are tending to be focused on the highly 
centralized population areas.
    And I said, ``Many bright spots.'' He said, ``You know, 
something amazing has happened in the last couple of months.'' 
He said, ``For many, many it is very hard for us in law 
enforcement to do anything about `ice' because, essentially, we 
stood against the entire community.''
    Ice users were being sheltered by their families, they were 
being sheltered by their friends. We would find out after the 
fact that the drug deal was going down. We knew who was having 
a problem, but we could never really get in on it.
    What has happened in the last couple months is we've seen 
more family members, more community members just saying no, and 
not saying no because they didn't like their family or friends 
that were using but because they cared about their family and 
friends.
    They cared to turn people in that they knew, that they had 
grown up with, that had gone back generations and within that 
very small, deep-knitted cultural community. And they were just 
saying for the good of us all, we need to put a stop to this.
    And I think what you have on the Big Island is a much 
better realization of that because this island amazingly has 
really led the way, in terms of the entire island, many 
different cultures, many different people, many different 
socioeconomics, saying that they care about this problem 
collectively, we're going to do something about it.
    And I think if we can keep that spirit going, if we can 
continue to maintain an attitude that this is all of our 
problem, every single one of us, whether we have friends or 
family or know somebody that is using, dealing, manufacturing, 
and whatever literally they might do, and help in whatever way 
we can, any one of these three categories, enforcement, 
prevention, or rehabilitation, I have absolutely no doubt we 
can eliminate this problem.
    Your Federal Government is here to help you, help all of us 
with our challenges. Again, I thank you for the effort that you 
have put in on the ground in assisting all of us and I thank 
your elected officials who have cared about this and for 
bringing these committee hearings to this island. Mahalo.
    Mr. Souder. I want to thank our treatment and prevention 
people. By tradition, this committee always starts with its 
Federal witnesses who are predominantly Federal oversight 
agencies and we move through. But we always try to include the 
treatment and prevention people in every hearing because 
without the grass roots working away with individuals one at a 
time, you can only do so much in the larger picture too. Tell 
your staff, too, and all the organizations they work with, we 
appreciate their work.
    There are a couple of general things I wanted to mention, 
too, in addition to thanking Congressman Case, again, and the 
others who have been so hospitable here. Our committee has 
broad jurisdiction and we probably spend 60 percent of our time 
on narcotics. We spent a lot of time in this past year because 
we also oversee the office of faith-based initiatives, so we've 
been doing a number of regional hearings with that.
    And one of the things that is real interesting in narcotics 
abuse is that everyone, regardless of their approach or feeling 
about that issue, realizes that unless an individual makes a 
commitment to change somewhere along the way, aren't probably 
going to get off, and certainly they aren't going to stay off. 
And one of the key elements of that is a faith experience, and 
we've seen some pretty amazing stories that can do it for far 
less than $325 a day, if, indeed, they make a personal 
commitment to change their life.
    Now, if they don't make that personal commitment, even then 
you need to have monitoring and support groups, but a major 
philosophical change often anchored in religion that says I am 
going to hell, I am going to change my life, I am destroying my 
family, I am going to change. Then if you don't have that, then 
the drug testing, the job training, the other types of support 
become even more critical because internally, they haven't made 
that change. You have to use more and more external factors. 
It's amazing when somebody has made a dynamic change. All of a 
sudden their attitude toward education changes, their attitude 
toward how they're going to show up for work changes, there are 
other mental things that come out of that. So that certainly 
should be an element that goes in the mix and we've been trying 
to work with that around the country. And by the way, it isn't 
just for drug treatment, it's in a lot of different areas.
    I appreciate you bringing that point out because it's a 
critical part because much of this is mental. Yes, it's 
physical, but it's also mental, and particularly the recovery 
has to be mental, at least after the first stages of addiction 
as you get over the physical part.
    We also--as we work through this, I strongly believe we 
have to look at more family approaches.
    It's also very interesting to see where you can have things 
that will apply in the other States where you have things that 
are unique to Hawaii. We need to always respect that from the 
Federal Government. We try to push things as much as possible 
down to the State side, you made a good point pushing it to the 
local community, with minimal pass-through, minimal control 
should be, obviously, the goal.
    When I got elected, I came from a little town of 700 
outside of Ft. Wayne. My theme was more Grable, less 
Washington, but I didn't mean to move it from Grable to 
Indianapolis either any more than you want to move it to 
Honolulu. The point should be that you agree to move it down 
with the monitoring.
    When you're spending other peoples' tax dollars from other 
States, there are going to be more strings, there is going to 
be more taken out as it moves down in monitoring, it's not just 
a pure block grant. He who pays the piper picks the tune is the 
old expression and that will be there. Nevertheless, we want to 
maximize the dollars on the ground.
    I very much appreciate the seeming progress that you're 
making in a community-wide thing, but it's very important that 
we also make the end roads on marijuana and the other drugs as 
you're doing this or it will be self defeating. We don't want a 
Cheech & Chong or a modern day Ozzie Osbourne family situation.
    This committee almost had a very unique hearing.
    I say almost because the window was such that I couldn't 
get in in time, but we actually talked to Ozzie Osbourne and he 
was going to come to our hearing with his full family before a 
couple more of them went into drug rehab, Sharon with her own 
album and all this kind of stuff. But he is one of the most 
eloquent, in between his ineloquent periods, which are pretty 
frequent, of saying, look, I got messed up and have blown out 
part of my brain, I've only blown out part of the brain of my 
kids because of my behavior.
    Unless we kind of understand this is interrelated together, 
which is the other thing that's been real challenging because 
the plantation mentality--or the changing limited opportunities 
in some of the areas of this island isn't that much different 
than we feel in the rust belt where you can grow up and not 
even have to graduate from high school, get a steel making job 
of $55,000, now all of a sudden that's in China. If it's not in 
Mexico, it's in China.
    And the question is now they're working two jobs, have 
similar kinds of pressures that even the middle and upper 
classes aren't certainly aware of their next job or how stable 
that's going to be, it just adds uncertainty. And if you're a 
temperament that thrives on that, that's fine. But if you're a 
temperament that likes security, it's a whole different 
challenge here.
    But one of the great things about America, and David Brooks 
has a new book about this, is that we have outlets beyond just 
the job in which to identify themselves which is why we don't 
have some of the class warfare that you have in other nations. 
It may be you're the greatest ukulele player in a band in Hilo. 
It may be that you're the bowling champion on a given island or 
you've written an article or I like to collect miniature 
lighthouses. I've been to lighthouses and I can pretty much up 
just about anybody for the number of lighthouses I've been to, 
and so I'm kind of a lighthouse expert.
    And as you teach kids of how self-esteem can come to 
supplement other than just this daily routine of a job, it's 
one of challenges and why the Boys and Girls Clubs have 
increasingly gotten more dollars in the system and why we have 
to look at creative ways to communicate that jobs are 
important, I'm the workaholic, this job, other than when you're 
being attacked which is often, is a great job, but I've also 
had all kinds of other jobs and so has my family and you can't 
get your total satisfaction out of your work and that has to be 
something that you can communicate through to.
    Thanks, again, for your efforts. Thanks for this hearing. 
If you have additional information that you want to come in--
and tracking information is very helpful because the problem 
with meth and ice, in particular, you have more of a track 
record and have dealt with the variations that when we talk to 
treatment people in other parts of the United States, we don't 
have anything. We're dealing with things that are 24 months 
max, some areas 6 months. It's a whole different ball game.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 1:15 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T8604.051

[GRAPHIC] [TIFF OMITTED] T8604.052

[GRAPHIC] [TIFF OMITTED] T8604.053

[GRAPHIC] [TIFF OMITTED] T8604.054

[GRAPHIC] [TIFF OMITTED] T8604.055

[GRAPHIC] [TIFF OMITTED] T8604.056

[GRAPHIC] [TIFF OMITTED] T8604.057

[GRAPHIC] [TIFF OMITTED] T8604.058

[GRAPHIC] [TIFF OMITTED] T8604.059

[GRAPHIC] [TIFF OMITTED] T8604.060

[GRAPHIC] [TIFF OMITTED] T8604.061

[GRAPHIC] [TIFF OMITTED] T8604.062

[GRAPHIC] [TIFF OMITTED] T8604.063

[GRAPHIC] [TIFF OMITTED] T8604.064

[GRAPHIC] [TIFF OMITTED] T8604.065

[GRAPHIC] [TIFF OMITTED] T8604.066

[GRAPHIC] [TIFF OMITTED] T8604.067

[GRAPHIC] [TIFF OMITTED] T8604.068

[GRAPHIC] [TIFF OMITTED] T8604.069

[GRAPHIC] [TIFF OMITTED] T8604.070

[GRAPHIC] [TIFF OMITTED] T8604.071

[GRAPHIC] [TIFF OMITTED] T8604.072

[GRAPHIC] [TIFF OMITTED] T8604.073

[GRAPHIC] [TIFF OMITTED] T8604.074

[GRAPHIC] [TIFF OMITTED] T8604.075

[GRAPHIC] [TIFF OMITTED] T8604.076

[GRAPHIC] [TIFF OMITTED] T8604.077

[GRAPHIC] [TIFF OMITTED] T8604.078

[GRAPHIC] [TIFF OMITTED] T8604.079

[GRAPHIC] [TIFF OMITTED] T8604.080

[GRAPHIC] [TIFF OMITTED] T8604.081

[GRAPHIC] [TIFF OMITTED] T8604.082

[GRAPHIC] [TIFF OMITTED] T8604.083

[GRAPHIC] [TIFF OMITTED] T8604.084

[GRAPHIC] [TIFF OMITTED] T8604.085

[GRAPHIC] [TIFF OMITTED] T8604.086

[GRAPHIC] [TIFF OMITTED] T8604.087

[GRAPHIC] [TIFF OMITTED] T8604.088

[GRAPHIC] [TIFF OMITTED] T8604.089

[GRAPHIC] [TIFF OMITTED] T8604.090

[GRAPHIC] [TIFF OMITTED] T8604.091

[GRAPHIC] [TIFF OMITTED] T8604.092

[GRAPHIC] [TIFF OMITTED] T8604.093

[GRAPHIC] [TIFF OMITTED] T8604.094

[GRAPHIC] [TIFF OMITTED] T8604.095

[GRAPHIC] [TIFF OMITTED] T8604.096

[GRAPHIC] [TIFF OMITTED] T8604.097

[GRAPHIC] [TIFF OMITTED] T8604.098

[GRAPHIC] [TIFF OMITTED] T8604.099

[GRAPHIC] [TIFF OMITTED] T8604.100

[GRAPHIC] [TIFF OMITTED] T8604.101

[GRAPHIC] [TIFF OMITTED] T8604.102

[GRAPHIC] [TIFF OMITTED] T8604.103

[GRAPHIC] [TIFF OMITTED] T8604.104

[GRAPHIC] [TIFF OMITTED] T8604.105

[GRAPHIC] [TIFF OMITTED] T8604.106

[GRAPHIC] [TIFF OMITTED] T8604.107

[GRAPHIC] [TIFF OMITTED] T8604.108

[GRAPHIC] [TIFF OMITTED] T8604.109

[GRAPHIC] [TIFF OMITTED] T8604.110

[GRAPHIC] [TIFF OMITTED] T8604.111

[GRAPHIC] [TIFF OMITTED] T8604.112

[GRAPHIC] [TIFF OMITTED] T8604.113

[GRAPHIC] [TIFF OMITTED] T8604.114

[GRAPHIC] [TIFF OMITTED] T8604.115

[GRAPHIC] [TIFF OMITTED] T8604.116

[GRAPHIC] [TIFF OMITTED] T8604.117

[GRAPHIC] [TIFF OMITTED] T8604.118

[GRAPHIC] [TIFF OMITTED] T8604.119

[GRAPHIC] [TIFF OMITTED] T8604.120

[GRAPHIC] [TIFF OMITTED] T8604.121

[GRAPHIC] [TIFF OMITTED] T8604.122

[GRAPHIC] [TIFF OMITTED] T8604.123

[GRAPHIC] [TIFF OMITTED] T8604.124

[GRAPHIC] [TIFF OMITTED] T8604.125

[GRAPHIC] [TIFF OMITTED] T8604.126

[GRAPHIC] [TIFF OMITTED] T8604.127

[GRAPHIC] [TIFF OMITTED] T8604.128

[GRAPHIC] [TIFF OMITTED] T8604.129

[GRAPHIC] [TIFF OMITTED] T8604.130

[GRAPHIC] [TIFF OMITTED] T8604.131

[GRAPHIC] [TIFF OMITTED] T8604.132

[GRAPHIC] [TIFF OMITTED] T8604.133

[GRAPHIC] [TIFF OMITTED] T8604.134

[GRAPHIC] [TIFF OMITTED] T8604.135

[GRAPHIC] [TIFF OMITTED] T8604.136

[GRAPHIC] [TIFF OMITTED] T8604.137

[GRAPHIC] [TIFF OMITTED] T8604.138

[GRAPHIC] [TIFF OMITTED] T8604.139

[GRAPHIC] [TIFF OMITTED] T8604.140

[GRAPHIC] [TIFF OMITTED] T8604.141

[GRAPHIC] [TIFF OMITTED] T8604.142

[GRAPHIC] [TIFF OMITTED] T8604.143

[GRAPHIC] [TIFF OMITTED] T8604.144

[GRAPHIC] [TIFF OMITTED] T8604.145

[GRAPHIC] [TIFF OMITTED] T8604.146

[GRAPHIC] [TIFF OMITTED] T8604.147

[GRAPHIC] [TIFF OMITTED] T8604.148

[GRAPHIC] [TIFF OMITTED] T8604.149

[GRAPHIC] [TIFF OMITTED] T8604.150

[GRAPHIC] [TIFF OMITTED] T8604.151

[GRAPHIC] [TIFF OMITTED] T8604.152

[GRAPHIC] [TIFF OMITTED] T8604.153

[GRAPHIC] [TIFF OMITTED] T8604.154

[GRAPHIC] [TIFF OMITTED] T8604.155

[GRAPHIC] [TIFF OMITTED] T8604.156

[GRAPHIC] [TIFF OMITTED] T8604.157

[GRAPHIC] [TIFF OMITTED] T8604.158

[GRAPHIC] [TIFF OMITTED] T8604.159

[GRAPHIC] [TIFF OMITTED] T8604.160

[GRAPHIC] [TIFF OMITTED] T8604.161

[GRAPHIC] [TIFF OMITTED] T8604.162

[GRAPHIC] [TIFF OMITTED] T8604.163

[GRAPHIC] [TIFF OMITTED] T8604.164

[GRAPHIC] [TIFF OMITTED] T8604.165

[GRAPHIC] [TIFF OMITTED] T8604.166

[GRAPHIC] [TIFF OMITTED] T8604.167

[GRAPHIC] [TIFF OMITTED] T8604.168

[GRAPHIC] [TIFF OMITTED] T8604.169

[GRAPHIC] [TIFF OMITTED] T8604.170

[GRAPHIC] [TIFF OMITTED] T8604.171

[GRAPHIC] [TIFF OMITTED] T8604.172

[GRAPHIC] [TIFF OMITTED] T8604.173

[GRAPHIC] [TIFF OMITTED] T8604.174

[GRAPHIC] [TIFF OMITTED] T8604.175

[GRAPHIC] [TIFF OMITTED] T8604.176

[GRAPHIC] [TIFF OMITTED] T8604.177

[GRAPHIC] [TIFF OMITTED] T8604.178

[GRAPHIC] [TIFF OMITTED] T8604.179

[GRAPHIC] [TIFF OMITTED] T8604.180

[GRAPHIC] [TIFF OMITTED] T8604.181

[GRAPHIC] [TIFF OMITTED] T8604.182

[GRAPHIC] [TIFF OMITTED] T8604.183

[GRAPHIC] [TIFF OMITTED] T8604.184

[GRAPHIC] [TIFF OMITTED] T8604.185

[GRAPHIC] [TIFF OMITTED] T8604.186

[GRAPHIC] [TIFF OMITTED] T8604.187

[GRAPHIC] [TIFF OMITTED] T8604.188

[GRAPHIC] [TIFF OMITTED] T8604.189

[GRAPHIC] [TIFF OMITTED] T8604.190

[GRAPHIC] [TIFF OMITTED] T8604.191

[GRAPHIC] [TIFF OMITTED] T8604.192

[GRAPHIC] [TIFF OMITTED] T8604.193

[GRAPHIC] [TIFF OMITTED] T8604.194

[GRAPHIC] [TIFF OMITTED] T8604.195

[GRAPHIC] [TIFF OMITTED] T8604.196

[GRAPHIC] [TIFF OMITTED] T8604.197

[GRAPHIC] [TIFF OMITTED] T8604.198

[GRAPHIC] [TIFF OMITTED] T8604.199

[GRAPHIC] [TIFF OMITTED] T8604.200

[GRAPHIC] [TIFF OMITTED] T8604.201

[GRAPHIC] [TIFF OMITTED] T8604.202

[GRAPHIC] [TIFF OMITTED] T8604.203

[GRAPHIC] [TIFF OMITTED] T8604.204

[GRAPHIC] [TIFF OMITTED] T8604.205

[GRAPHIC] [TIFF OMITTED] T8604.206

[GRAPHIC] [TIFF OMITTED] T8604.207

[GRAPHIC] [TIFF OMITTED] T8604.208

[GRAPHIC] [TIFF OMITTED] T8604.209

[GRAPHIC] [TIFF OMITTED] T8604.210

[GRAPHIC] [TIFF OMITTED] T8604.211

[GRAPHIC] [TIFF OMITTED] T8604.212

[GRAPHIC] [TIFF OMITTED] T8604.213

[GRAPHIC] [TIFF OMITTED] T8604.214

[GRAPHIC] [TIFF OMITTED] T8604.215

[GRAPHIC] [TIFF OMITTED] T8604.216

[GRAPHIC] [TIFF OMITTED] T8604.217

[GRAPHIC] [TIFF OMITTED] T8604.218

[GRAPHIC] [TIFF OMITTED] T8604.219

[GRAPHIC] [TIFF OMITTED] T8604.220

[GRAPHIC] [TIFF OMITTED] T8604.221

[GRAPHIC] [TIFF OMITTED] T8604.222

[GRAPHIC] [TIFF OMITTED] T8604.223

[GRAPHIC] [TIFF OMITTED] T8604.224

[GRAPHIC] [TIFF OMITTED] T8604.225

[GRAPHIC] [TIFF OMITTED] T8604.226

[GRAPHIC] [TIFF OMITTED] T8604.227

[GRAPHIC] [TIFF OMITTED] T8604.228

[GRAPHIC] [TIFF OMITTED] T8604.229

[GRAPHIC] [TIFF OMITTED] T8604.230

[GRAPHIC] [TIFF OMITTED] T8604.231

[GRAPHIC] [TIFF OMITTED] T8604.232

[GRAPHIC] [TIFF OMITTED] T8604.233

[GRAPHIC] [TIFF OMITTED] T8604.234

[GRAPHIC] [TIFF OMITTED] T8604.235

[GRAPHIC] [TIFF OMITTED] T8604.236

[GRAPHIC] [TIFF OMITTED] T8604.237

[GRAPHIC] [TIFF OMITTED] T8604.238

[GRAPHIC] [TIFF OMITTED] T8604.239

[GRAPHIC] [TIFF OMITTED] T8604.240

[GRAPHIC] [TIFF OMITTED] T8604.241

[GRAPHIC] [TIFF OMITTED] T8604.242

[GRAPHIC] [TIFF OMITTED] T8604.243

[GRAPHIC] [TIFF OMITTED] T8604.244

[GRAPHIC] [TIFF OMITTED] T8604.245

[GRAPHIC] [TIFF OMITTED] T8604.246

[GRAPHIC] [TIFF OMITTED] T8604.247

[GRAPHIC] [TIFF OMITTED] T8604.248

[GRAPHIC] [TIFF OMITTED] T8604.249

[GRAPHIC] [TIFF OMITTED] T8604.250

[GRAPHIC] [TIFF OMITTED] T8604.251

[GRAPHIC] [TIFF OMITTED] T8604.252

[GRAPHIC] [TIFF OMITTED] T8604.253

[GRAPHIC] [TIFF OMITTED] T8604.254

[GRAPHIC] [TIFF OMITTED] T8604.255

[GRAPHIC] [TIFF OMITTED] T8604.256

[GRAPHIC] [TIFF OMITTED] T8604.257

[GRAPHIC] [TIFF OMITTED] T8604.258

[GRAPHIC] [TIFF OMITTED] T8604.259

[GRAPHIC] [TIFF OMITTED] T8604.260

[GRAPHIC] [TIFF OMITTED] T8604.261

[GRAPHIC] [TIFF OMITTED] T8604.262

[GRAPHIC] [TIFF OMITTED] T8604.263

[GRAPHIC] [TIFF OMITTED] T8604.264

[GRAPHIC] [TIFF OMITTED] T8604.265

[GRAPHIC] [TIFF OMITTED] T8604.266

[GRAPHIC] [TIFF OMITTED] T8604.267

[GRAPHIC] [TIFF OMITTED] T8604.268

[GRAPHIC] [TIFF OMITTED] T8604.269

[GRAPHIC] [TIFF OMITTED] T8604.270

[GRAPHIC] [TIFF OMITTED] T8604.271

[GRAPHIC] [TIFF OMITTED] T8604.272

[GRAPHIC] [TIFF OMITTED] T8604.273

[GRAPHIC] [TIFF OMITTED] T8604.274

[GRAPHIC] [TIFF OMITTED] T8604.275

[GRAPHIC] [TIFF OMITTED] T8604.276

[GRAPHIC] [TIFF OMITTED] T8604.277

[GRAPHIC] [TIFF OMITTED] T8604.278

[GRAPHIC] [TIFF OMITTED] T8604.279

[GRAPHIC] [TIFF OMITTED] T8604.280

[GRAPHIC] [TIFF OMITTED] T8604.281

[GRAPHIC] [TIFF OMITTED] T8604.282

[GRAPHIC] [TIFF OMITTED] T8604.283

[GRAPHIC] [TIFF OMITTED] T8604.284

[GRAPHIC] [TIFF OMITTED] T8604.285

[GRAPHIC] [TIFF OMITTED] T8604.286

[GRAPHIC] [TIFF OMITTED] T8604.287

[GRAPHIC] [TIFF OMITTED] T8604.288

[GRAPHIC] [TIFF OMITTED] T8604.289

[GRAPHIC] [TIFF OMITTED] T8604.290

[GRAPHIC] [TIFF OMITTED] T8604.291

[GRAPHIC] [TIFF OMITTED] T8604.292

[GRAPHIC] [TIFF OMITTED] T8604.293

[GRAPHIC] [TIFF OMITTED] T8604.294

[GRAPHIC] [TIFF OMITTED] T8604.295

[GRAPHIC] [TIFF OMITTED] T8604.296

[GRAPHIC] [TIFF OMITTED] T8604.297

[GRAPHIC] [TIFF OMITTED] T8604.298

[GRAPHIC] [TIFF OMITTED] T8604.299

[GRAPHIC] [TIFF OMITTED] T8604.300

[GRAPHIC] [TIFF OMITTED] T8604.301

[GRAPHIC] [TIFF OMITTED] T8604.302

[GRAPHIC] [TIFF OMITTED] T8604.303

[GRAPHIC] [TIFF OMITTED] T8604.304

[GRAPHIC] [TIFF OMITTED] T8604.305

[GRAPHIC] [TIFF OMITTED] T8604.306

[GRAPHIC] [TIFF OMITTED] T8604.307

[GRAPHIC] [TIFF OMITTED] T8604.308

[GRAPHIC] [TIFF OMITTED] T8604.309

[GRAPHIC] [TIFF OMITTED] T8604.310

[GRAPHIC] [TIFF OMITTED] T8604.311

[GRAPHIC] [TIFF OMITTED] T8604.312

[GRAPHIC] [TIFF OMITTED] T8604.313

[GRAPHIC] [TIFF OMITTED] T8604.314

[GRAPHIC] [TIFF OMITTED] T8604.315

[GRAPHIC] [TIFF OMITTED] T8604.316

[GRAPHIC] [TIFF OMITTED] T8604.317

[GRAPHIC] [TIFF OMITTED] T8604.318

[GRAPHIC] [TIFF OMITTED] T8604.319

[GRAPHIC] [TIFF OMITTED] T8604.320

[GRAPHIC] [TIFF OMITTED] T8604.321

[GRAPHIC] [TIFF OMITTED] T8604.322

[GRAPHIC] [TIFF OMITTED] T8604.323

[GRAPHIC] [TIFF OMITTED] T8604.324

[GRAPHIC] [TIFF OMITTED] T8604.325

[GRAPHIC] [TIFF OMITTED] T8604.326

[GRAPHIC] [TIFF OMITTED] T8604.327

[GRAPHIC] [TIFF OMITTED] T8604.328

[GRAPHIC] [TIFF OMITTED] T8604.329

[GRAPHIC] [TIFF OMITTED] T8604.330

[GRAPHIC] [TIFF OMITTED] T8604.331

[GRAPHIC] [TIFF OMITTED] T8604.332

[GRAPHIC] [TIFF OMITTED] T8604.333

[GRAPHIC] [TIFF OMITTED] T8604.334

[GRAPHIC] [TIFF OMITTED] T8604.335

[GRAPHIC] [TIFF OMITTED] T8604.336

[GRAPHIC] [TIFF OMITTED] T8604.337

[GRAPHIC] [TIFF OMITTED] T8604.338

[GRAPHIC] [TIFF OMITTED] T8604.339

[GRAPHIC] [TIFF OMITTED] T8604.340

[GRAPHIC] [TIFF OMITTED] T8604.341

[GRAPHIC] [TIFF OMITTED] T8604.342

[GRAPHIC] [TIFF OMITTED] T8604.343

[GRAPHIC] [TIFF OMITTED] T8604.344

[GRAPHIC] [TIFF OMITTED] T8604.345

[GRAPHIC] [TIFF OMITTED] T8604.346

[GRAPHIC] [TIFF OMITTED] T8604.347

[GRAPHIC] [TIFF OMITTED] T8604.348

[GRAPHIC] [TIFF OMITTED] T8604.349

[GRAPHIC] [TIFF OMITTED] T8604.350

[GRAPHIC] [TIFF OMITTED] T8604.351

[GRAPHIC] [TIFF OMITTED] T8604.352

[GRAPHIC] [TIFF OMITTED] T8604.353

[GRAPHIC] [TIFF OMITTED] T8604.354

[GRAPHIC] [TIFF OMITTED] T8604.355

[GRAPHIC] [TIFF OMITTED] T8604.356

[GRAPHIC] [TIFF OMITTED] T8604.357

[GRAPHIC] [TIFF OMITTED] T8604.358

[GRAPHIC] [TIFF OMITTED] T8604.359

[GRAPHIC] [TIFF OMITTED] T8604.360

[GRAPHIC] [TIFF OMITTED] T8604.361

[GRAPHIC] [TIFF OMITTED] T8604.362

[GRAPHIC] [TIFF OMITTED] T8604.363

[GRAPHIC] [TIFF OMITTED] T8604.364

[GRAPHIC] [TIFF OMITTED] T8604.365

[GRAPHIC] [TIFF OMITTED] T8604.366

[GRAPHIC] [TIFF OMITTED] T8604.367

[GRAPHIC] [TIFF OMITTED] T8604.368

[GRAPHIC] [TIFF OMITTED] T8604.369

[GRAPHIC] [TIFF OMITTED] T8604.370

[GRAPHIC] [TIFF OMITTED] T8604.371

[GRAPHIC] [TIFF OMITTED] T8604.372

[GRAPHIC] [TIFF OMITTED] T8604.373

[GRAPHIC] [TIFF OMITTED] T8604.374

[GRAPHIC] [TIFF OMITTED] T8604.375

[GRAPHIC] [TIFF OMITTED] T8604.376

[GRAPHIC] [TIFF OMITTED] T8604.377

[GRAPHIC] [TIFF OMITTED] T8604.378

[GRAPHIC] [TIFF OMITTED] T8604.379

[GRAPHIC] [TIFF OMITTED] T8604.380

[GRAPHIC] [TIFF OMITTED] T8604.381

[GRAPHIC] [TIFF OMITTED] T8604.382

[GRAPHIC] [TIFF OMITTED] T8604.383

[GRAPHIC] [TIFF OMITTED] T8604.384

[GRAPHIC] [TIFF OMITTED] T8604.385

[GRAPHIC] [TIFF OMITTED] T8604.386

[GRAPHIC] [TIFF OMITTED] T8604.387

[GRAPHIC] [TIFF OMITTED] T8604.388

[GRAPHIC] [TIFF OMITTED] T8604.389

[GRAPHIC] [TIFF OMITTED] T8604.390

[GRAPHIC] [TIFF OMITTED] T8604.392

[GRAPHIC] [TIFF OMITTED] T8604.393

[GRAPHIC] [TIFF OMITTED] T8604.394

[GRAPHIC] [TIFF OMITTED] T8604.395

[GRAPHIC] [TIFF OMITTED] T8604.396

[GRAPHIC] [TIFF OMITTED] T8604.397

[GRAPHIC] [TIFF OMITTED] T8604.398

[GRAPHIC] [TIFF OMITTED] T8604.399

[GRAPHIC] [TIFF OMITTED] T8604.400

[GRAPHIC] [TIFF OMITTED] T8604.401

[GRAPHIC] [TIFF OMITTED] T8604.402

[GRAPHIC] [TIFF OMITTED] T8604.403

[GRAPHIC] [TIFF OMITTED] T8604.404

[GRAPHIC] [TIFF OMITTED] T8604.405

[GRAPHIC] [TIFF OMITTED] T8604.406

[GRAPHIC] [TIFF OMITTED] T8604.407

[GRAPHIC] [TIFF OMITTED] T8604.408

[GRAPHIC] [TIFF OMITTED] T8604.409

[GRAPHIC] [TIFF OMITTED] T8604.410

[GRAPHIC] [TIFF OMITTED] T8604.411

[GRAPHIC] [TIFF OMITTED] T8604.412

[GRAPHIC] [TIFF OMITTED] T8604.413

[GRAPHIC] [TIFF OMITTED] T8604.414

[GRAPHIC] [TIFF OMITTED] T8604.415

[GRAPHIC] [TIFF OMITTED] T8604.416

[GRAPHIC] [TIFF OMITTED] T8604.417

[GRAPHIC] [TIFF OMITTED] T8604.418

[GRAPHIC] [TIFF OMITTED] T8604.419

[GRAPHIC] [TIFF OMITTED] T8604.420

[GRAPHIC] [TIFF OMITTED] T8604.421

[GRAPHIC] [TIFF OMITTED] T8604.422

[GRAPHIC] [TIFF OMITTED] T8604.423

[GRAPHIC] [TIFF OMITTED] T8604.424

[GRAPHIC] [TIFF OMITTED] T8604.425

[GRAPHIC] [TIFF OMITTED] T8604.426

[GRAPHIC] [TIFF OMITTED] T8604.427

[GRAPHIC] [TIFF OMITTED] T8604.428

[GRAPHIC] [TIFF OMITTED] T8604.429

[GRAPHIC] [TIFF OMITTED] T8604.430

[GRAPHIC] [TIFF OMITTED] T8604.431

[GRAPHIC] [TIFF OMITTED] T8604.432

[GRAPHIC] [TIFF OMITTED] T8604.433

[GRAPHIC] [TIFF OMITTED] T8604.434

[GRAPHIC] [TIFF OMITTED] T8604.435

[GRAPHIC] [TIFF OMITTED] T8604.436

[GRAPHIC] [TIFF OMITTED] T8604.437

[GRAPHIC] [TIFF OMITTED] T8604.438

[GRAPHIC] [TIFF OMITTED] T8604.440

                                 <all>

</pre></body></html>
